FEDERAL BUREAU OF INVESTIGATION 

  ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2012 

         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


             Audit Report 13-11 

               January 2013

          FEDERAL BUREAU OF INVESTIGATION

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Bureau of Investigation (FBI) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the FBI’s audit in
accordance with auditing standards generally accepted in the United States
of America. The audit resulted in an unqualified opinion on the FY 2012
financial statements. An unqualified opinion means that the financial
statements present fairly, in all material respects, the financial position and
the results of the entity’s operations in conformity with U.S. generally
accepted accounting principles. For FY 2011, the FBI also received an
unqualified opinion on its financial statements (OIG Report No. 12-16).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any significant deficiencies in the FY 2012 Independent Auditors’
Report on Internal Control over Financial Reporting. However, in the
FY 2012 Independent Auditors’ Report on Compliance and Other Matters, the
auditors noted that the FBI’s financial management systems did not
substantially comply with federal financial management system
requirements and the application of the U.S. Government Standard General
Ledger at the transaction level as required by the Federal Financial
Management Improvement Act of 1996 (FFMIA). This non-compliance with
the FFMIA was also reported for FY 2011.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on the FBI’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the FBI’s financial
management systems substantially complied with the FFMIA, or conclusions
on compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 5, 2012, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with auditing standards
generally accepted in the United States of America.
This page intentionally left blank. 

              FEDERAL BUREAU OF INVESTIGATION

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2012


                           TABLE OF CONTENTS


                                                                                PAGE
	

MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3
	

INDEPENDENT AUDITORS’ REPORTS
	

  REPORT ON FINANCIAL STATEMENTS ................................................ 25
	

  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 27
	

  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 29
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

  CONSOLIDATED BALANCE SHEETS.................................................... 37
	

  CONSOLIDATED STATEMENTS OF NET COST ...................................... 38
	

  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 39
	

  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 40
	

  NOTES TO THE FINANCIAL STATEMENTS ........................................... 41
	

REQUIRED SUPPLEMENTARY INFORMATION
	

  COMBINING STATEMENTS OF BUDGETARY RESOURCES
	
     BY MAJOR APPROPRIATION ....................................................... 68
	

OTHER ACCOMPANYING INFORMATION
	

  COMBINED SCHEDULE OF SPENDING ................................................ 73
	
This page intentionally left blank. 

U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



  MANAGEMENT’S DISCUSSION AND ANALYSIS
             (UNAUDITED)




                  -1-
This page intentionally left blank. 





            -2-
                Management’s Discussion and Analysis


                                   U.S. DEPARTMENT OF JUSTICE

                                FEDERAL BUREAU OF INVESTIGATION

                              MANAGEMENT’S DISCUSSION AND ANALYSIS

                                           (UNAUDITED)


MISSION

The Federal Bureau of Investigation (FBI or Bureau) is a component of the United States (U.S.) Department
of Justice (DOJ or the Department) and a member of the U.S. Intelligence Community (IC). The mission of
the FBI is to protect and defend the U.S. against terrorist and foreign intelligence threats, to uphold and
enforce the criminal laws of the U.S., and to provide leadership and criminal justice services to federal, state,
municipal, and international agencies and partners.
Director Robert Mueller sets the FBI priorities to communicate how the FBI would address its wide range of
responsibilities. In executing the following priorities, the FBI produces and uses intelligence to protect the
nation from threats and to bring to justice those who violate the law. The first eight priorities are listed in
order of precedence. The final two are all-encompassing functions that support the Bureau’s mission and
objectives. The ten priorities are:
        1. Protect the U.S. from terrorist attack;
        2. Protect the U.S. against foreign intelligence operations and espionage;
        3. Protect the U.S. against cyber-based attacks and high-technology crimes;
        4. Combat public corruption at all levels;
        5. Protect civil rights;
        6. Combat transnational and national criminal organizations and enterprises;
        7. Combat major white-collar crime;
        8. Combat significant violent crime;
        9. Support federal, state, local, and international partners; and
        10. Upgrade technology to successfully perform the FBI's mission.
In Fiscal Year (FY) 2012, DOJ published an updated Strategic Plan under which the FBI now reports on all
three DOJ Strategic Goals (SGs or Goals). The methodology by which the FBI allocates gross costs and
earned revenue across the three SGs is consistent with the methodology used to allocate the FBI’s budget to
the three SGs in the FY 2013 Authorization and Budget Request to Congress. The three SGs are:
        Goal 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of Law;
        Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law; and
        Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice
        at the Federal, State, Local, Tribal, and International Levels.
Priorities 1 through 3 support Goal 1, priorities 3 through 8 support Goal 2, and priorities 9 and 10 support
all three Goals.




Federal Bureau of Investigation                       -3-
                Management’s Discussion and Analysis


ORGANIZATION STRUCTURE
Along with the FBI’s headquarters (HQ or Headquarters) located in Washington, D.C., the FBI operates 56
field offices and approximately 370 resident agencies across the U.S. and its territories. The FBI also
operates more than 60 Legal Attaché (Legat) offices and 14 sub-offices in 67 foreign countries worldwide.
As the FBI has grown, some Headquarters functions have moved to other locations. The Criminal Justice
Information Services Division (CJIS) is located in Clarksburg, West Virginia. The Laboratory Division,
Operational Technology Division, and the FBI Academy are located in Quantico, Virginia. Other specialized
facilities, such as Regional Computer Forensic Laboratories, are located at various locations across the
country.
FBI Headquarters provides centralized operational, policy, and administrative support to investigations and
programs conducted throughout the U.S. and in foreign countries. Under the direction of the FBI Director
and Deputy Director, HQ is organized into five main branches headed by Executive Assistant Directors and
several supporting divisions managed by the Associate Deputy Director. Each field office is overseen by a
Special Agent in Charge or an Assistant Director in Charge. Resident agencies are managed by Supervisory
Special Agents.
In FY 2012, the FBI’s appropriated staffing level consisted of 12,979 Special Agents, 3,038 Intelligence
Analysts, and 18,002 professional staff along with an additional 3,213 reimbursable positions.


FINANCIAL STRUCTURE
For purposes of executing its budget, the FBI’s funds are organized into the following categories:
appropriated single, multi-year, and no-year Salaries and Expenses funds; appropriated no-year Construction
funds; and, no-year Violent Crime Reduction Program trust funds. These funds include new appropriations,
transfers of appropriations from other federal agencies, and the carry-over of prior years’ unobligated
balances for multi-year and no-year appropriated funds. The FBI also receives reimbursable funding from
other agencies for services rendered.


ANALYSIS OF FINANCIAL STATEMENTS
The FBI’s financial statements received an unqualified audit opinion for FYs 2012 and 2011. These
financial statements have been prepared from the accounting records of the FBI in conformity with U.S.
generally accepted accounting principles issued by the Federal Accounting Standards Advisory Board and
presentation guidelines in the Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements.
Assets: Total Assets were $6.7 billion as of September 30, 2012, an increase of $211.7 million or three
percent from the previous fiscal year’s Total Assets of $6.5 billion. This increase is primarily due to an
increase in General Property, Plant and Equipment. The FBI attributes the majority of this increase to an
increase in Internal Use Software and Construction in Progress. Internal Use Software increased due to the
recording of the following completed software projects: Sentinel Agile, the Next Generation Identification
(NGI) system, Orion, and Combined DNA Index System.
Liabilities: Total Liabilities were $1.5 billion as of September 30, 2012, a decrease of $52.2 million or three
percent from the previous fiscal year’s Total Liabilities of $1.6 billion. This decrease is primarily due to
decreases in Intragovernmental Accounts Payable and Contingent Liabilities, offset by an increase in non-
federal Accounts Payable. The decrease in Intragovernmental Accounts Payable is primarily due to a



Federal Bureau of Investigation                      -4-
                Management’s Discussion and Analysis


decrease in Reimbursable Work Authorizations, where the FBI enters into an agreement with U.S. General
Services Administration for contracted services to renovate or build work spaces for the FBI. The decrease
in Contingent Liabilities is primarily due to the settlement of five prior cases. The increase in non-federal
Accounts Payable is primarily due to an increase in accruals for services provided by consulting firms and
labor and services for construction projects, mostly from existing vendors who provide continuing
contracts/services with the FBI.
Net Cost of Operations: Total Net Cost of Operations were $8.1 billion for the fiscal year ended September
30, 2012, an increase of $117.1 million or one percent from the previous fiscal year’s Total Net Cost of
Operations of $8.0 billion. This increase is primarily due to the enhancements and adjustments the FBI
received in its FY 2012 appropriation including resources for Computer Intrusions, National Security
Investigations, Violent Crime in Indian Country, and for the Weapons of Mass Destruction (WMD) Render
Safe mission.
Budgetary Resources: Total Budgetary Resources were $10.7 billion for the fiscal year ended September 30,
2012, an increase of $341.2 million or three percent from the previous fiscal year’s Total Budgetary
Resources of $10.3 billion. This increase is primarily due to an increase in Appropriations and Recoveries of
Prior Year Unpaid Obligations. The FBI attributes the increase in appropriations to increased salaries and
expenses and construction funding appropriated by Congress in FY 2012. The FBI attributes the increase in
Recoveries of Prior Year Unpaid Obligations to deobligations relating to radio equipment and employee
relocation, particularly for Spectrum and Prudential, respectively.
Net Outlays: Agency Outlays, Net were $8.1 billion for the fiscal year ended September 30, 2012, an
increase of $132.4 million or two percent from the previous fiscal year’s Agency Outlays, Net of $7.9 billion.
This increase is primarily due to an increase in appropriations for salaries and expenses and construction
funding appropriated by Congress in FY 2012.




Federal Bureau of Investigation                      -5-
                 Management’s Discussion and Analysis


Table 1 presents the sources of financing for FBI resources distinguished by Earned Revenue, Budgetary
Financing Sources, and Other Financing Sources. Table 2 describes how the FBI spent its resources, divided
across Strategic Goals 1, 2, and 3.
                                         Table 1. Source of FBI Resources
                                              (Dollars in Thousands)
                              Source                                        FY 2012       FY 2011             Change%
Earned Revenue                                                          $     1,286,794 $   1,277,122                1%
Budgetary Financing Sources
  Appropriations Received                                                     8,117,973          7,941,932           2%
  Appropriation Transferred-In/Out                                              (60,821)           (61,176)          1%
  Other Adjustments and Other Budgetary Financing Sources                           -              (15,884)        100%
Other Financing Sources
  Transfers-In/Out Without Reimbursement                                          5,333             74,270        (93%)
  Imputed Financing from Costs Absorbed by Others                               276,722            305,129         (9%)
  Other Financing Sources                                                        (5,199)            (4,613)       (13%)
Total                                                                   $    9,620,802 $        9,516,780           1%


                                      Table 2. How FBI Resources are Spent
                                              (Dollars in Thousands)
                        Strategic Goal (SG)                                 FY 2012            FY 2011        Change%
SG 1: Prevent Terrorism and Promote the Nation's Security
Consistent with the Rule of Law
                                                         Gross Cost $         5,341,870 $        5,223,334
                                              Less: Earned Revenue              460,839            447,606
                                                           Net Cost $         4,881,031 $        4,775,728          2%
SG 2: Prevent Crime, Protect the Rights of the American People,
and Enforce Federal Law
                                                           Gross Cost   $     2,964,275 $        2,992,410
                                               Less: Earned Revenue             340,061            318,479
                                                             Net Cost   $     2,624,214 $        2,673,931         (2%)
SG 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State, Local,
Tribal, and International Levels
                                                           Gross Cost   $     1,050,783 $        1,014,392
                                               Less: Earned Revenue             485,894            511,037
                                                             Net Cost   $       564,889 $          503,355         12%

                                                   Total Gross Cost $        9,356,928     $    9,230,136
                                        Less: Total Earned Revenue           1,286,794          1,277,122
                                       Total Net Cost of Operations $        8,070,134     $    7,953,014           1%




Federal Bureau of Investigation                         -6-
                Management’s Discussion and Analysis


FY 2012 Financial Highlights
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of
Law, includes the FBI’s counterterrorism and counterintelligence investigations, intelligence collection and
analysis, computer intrusions investigations, and the WMD program. In FY 2012, Goal 1 Net Cost was $4.9
billion, a net increase of two percent from FY 2011. This increase is primarily attributed to enhancements
received in FY 2012 in support of Goal 1 to include Computer Intrusions, National Security Investigations,
and the WMD Render Safe mission.
Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law,
includes the majority of the FBI's criminal investigative programs and programs supporting state and local
law enforcement. Investigations under Goal 2 include: organized crime, drugs, violent crime, white-collar
crime, and cyber crime. In FY 2012, Goal 2 Net Cost was $2.6 billion, a net decrease of two percent from
FY 2011. This decrease is primarily attributed to several offsets the FBI was required to take in FY 2012
including reductions to criminal task forces, personnel relocations, Resident Agency closures, Sentinel, and
other information technology tools, a portion of which are scored to Goal 2.
Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration
of Justice at the Federal, State, Local, Tribal, and International Levels, includes the FBI’s Integrated
Automation Fingerprint Identification Systems, NGI, the National Instant Criminal Background Check
System, the Law Enforcement National Data Exchange, and other criminal justice services that the FBI
offers to law enforcement agencies and local communities. In FY 2012, Goal 3 Net Cost was $0.6 billion, a
net increase of 12 percent from FY 2011. This increase is primarily attributed to personnel-related
adjustments to base (e.g. health insurance premiums, retirement costs) included in the FBI’s FY 2012
Appropriation.


PERFORMANCE INFORMATION
Data Reliability and Validity
Data reliability and validity are critically important to the FBI’s planning and performance. This document
includes a discussion of data validation, verification, and data limitations for each performance measure
presented. Each reporting component ensures that data meet the following criteria:
        At a minimum, performance data are considered reliable if transactions and other data that support
        performance measures are properly recorded, processed, and summarized to permit the preparation
        of performance information in accordance with criteria stated by management. Performance data
        need not be perfect to be reliable, particularly if the cost and effort to secure the best performance
        data possible will exceed the value of any data so obtained.
Performance measures included in previous FBI Management’s Discussion and Analysis (MD&A)
documents may have changed as a result of new information that was unavailable prior to submitting
previous financial reports. Due to the requirement to disclose performance data in the MD&A before the
close of the data entry period, reports of certain FY 2012 performance measures should be considered
tentative and are annotated accordingly. Other subsequent changes to prior year data may have occurred due
to factors beyond the control of the FBI’s data collection systems (e.g., convictions overturned on appeal).
For previously estimated measures, the FBI reviewed and revised certain FY 2011 performance data from the
FY 2011 MD&A. The FBI’s FY 2013 Authorization and Budget Request to Congress documented these
revisions. For FY 2012 MD&A performance estimates, the final results will be reflected in the FY 2014
President’s Budget.



Federal Bureau of Investigation                     -7-
                   Management’s Discussion and Analysis


FY 2012 REPORT ON SELECTED ACCOMPLISHMENTS


STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the
Rule of Law 60 percent of the FBI’s Net Cost supports this Goal.


PROGRAM: Counterterrorism
Background/Program Objectives: The FBI is committed to disrupting and preventing terrorism, from
thwarting those intending to conduct a terrorist act to investigating financiers of terrorist operations. All
counterterrorism investigations are managed at FBI Headquarters by the Counterterrorism Division (CTD).
CTD provides a centralized, comprehensive, and intelligence-driven approach to addressing both
international and domestic terrorism-related matters.
Performance Measure: NEW MEASURE: Number                                                       NEW MEASURE:
of Counterterrorism Intelligence Products Shared with                               Number of Counterterrorism Intelligence
the IC, State and Local Law Enforcement Community                                 Products Shared with the IC, State and Local
                                                                                  Law Enforcement Community Partners, and
Partners, and Foreign Government Agencies                                               Foreign Government Agencies
         FY 2003 Actual Performance: Not Available
                                                                                                                    13,231         13,628
         FY 2004 Actual Performance: Not Available                      15,000                                               12,445

         FY 2005 Actual Performance: Not Available
                                                                        10,000
         FY 2006 Actual Performance: Not Available
         FY 2007 Actual Performance: Not Available                       5,000
         FY 2008 Actual Performance: Not Available
         FY 2009 Actual Performance: Not Available                            0
                                                                                     FY08       FY09       FY10       FY11        FY12
         FY 2010 Actual Performance: Not Available                                               Actuals        Target
         FY 2011 Actual Performance: 13,231
                                                                      Data Definitions: Data represents the number of intelligence products
         FY 2012 Target:                        13,628	               shared with domestic partners. Products include: White Papers,
                                                                      Intelligence Information Reports (IIRs), Intelligence Bulletins,
                                                                      Intelligence Assessments, National Threat Bulletins, Current Intelligence
         FY 2012 Actual Performance: 12,445                           Reports, Intel Studies, Intel Notes, meetings, and briefings.

Discussion of FY 2012 Results: The FBI missed its 	          Data Collection and Storage: Data is stored on multiple platforms and
                                                             collected routinely. Some data is calculated manually.
target for this measure in FY 2012. Broken down by
                                                             Data Validation and Verification: Data is validated and verified
quarter, the number of intelligence products shared          through FBI reports and communications.
with the IC and state and local law enforcement
                                                             Data Limitations: Some data is calculated manually.
community partners were 2,869; 3,168; 3,061; and
3,347; respectively. Based on feedback received from Other Government Agency (OGA), IC, and law
enforcement partners, CTD emphasized the production of high-value IIRs which addressed priority
intelligence gaps or provided actionable intelligence to IC and law enforcement partners over low-value IIRs
which served only to flood the system with non-actionable intelligence or information of little-to-no
intelligence value. Although the emphasis on high-value IIRs resulted in missing the FY 2012 target, the
change has been well-received by OGA, IC, and law enforcement partners. CTD executive management will
continue to focus on increased intelligence sharing in the effort to combat the terrorist threat.




Federal Bureau of Investigation                              -8-
                Management’s Discussion and Analysis


STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law 33 percent of the FBI’s Net Cost supports this Goal.


PROGRAM: Criminal Enterprises
Background/Program Objectives: The FBI’s criminal enterprise investigations, managed by the Criminal
Investigative Division at FBI Headquarters, focus on violent gangs, Drug Trafficking Organizations (DTOs),
and other organized violent criminal actors.
Violent Gang Criminal Enterprises (VGCEs)
The mission of the FBI’s Violent Gang Subprogram is to address the VGCE threat in the U.S. by
aggressively identifying, prioritizing, and targeting the most violent street and prison gangs whose activities
constitute criminal enterprises. In January 1992, the FBI established the Safe Streets Violent Crime Initiative
to attack gang and drug-related violence through the establishment of long-term, proactive, and coordinated
teams of federal, state, and local law enforcement officers and prosecutors. The teams are manifested in
Violent Gang Safe Streets Task Forces (VGSSTFs). As of September 30, 2012, the 164 VGSSTFs managed
by the FBI included approximately 815 FBI Special Agents and 1,440 state, local, and other federal law
enforcement officials.
Through VGSSTFs, the FBI pursues violent gangs through sustained, pro-active, and coordinated
investigations and prosecutes gang members for a number of violations that include, but are not limited to,
racketeering, drug conspiracy, and firearms violations. The Safe Streets Task Forces (SSTFs) concept
expands cooperation and communication amongst federal, state, and local law enforcement agencies,
increasing productivity and avoiding duplication of investigative efforts. SSTFs combine short term, street-
level enforcement activity with sophisticated investigative techniques like undercover operations and Title III
wire taps to root out, prosecute, and disrupt and dismantle the entire gang, from the street-level enforcers and
dealers to crew leaders and gang's command structure.
State and local officers bring an unparalleled level of expertise and knowledge regarding local gangs, gang
members, and violent offenders operating in their department’s area of responsibility. This knowledge,
combined with FBI resources, ensures VGSSTFs are successful in disrupting and dismantling the most
violent gangs.




Federal Bureau of Investigation                      -9-
                   Management’s Discussion and Analysis


Performance Measure: NEW MEASURE: Number
                                                                                             NEW MEASURE:

of Gang Arrests Resulting from Coordination of Gang                                Number of Gang Arrests Resulting from

Investigations                                                                      Coordination of Gang Investigations

                                                                                                                                                     8,531
                                                                       10,000                                                 9,082      8,364
         FY 2003 Actual Performance: 3,837                                                                            7,792
                                                                                                                                                 7,758
                                                                        8,000                                 7,256                   7,184
         FY 2004 Actual Performance: 4,162
                                                                                                      5,357
                                                                        6,000                 4,726
         FY 2005 Actual Performance: 4,726                                            4,162
                                                                                  3,837
                                                                        4,000
         FY 2006 Actual Performance: 5,357
                                                                        2,000
         FY 2007 Actual Performance: 7,256
                                                                             0
         FY 2008 Actual Performance: 7,792                                       FY03         FY05            FY07            FY09            FY11
         FY 2009 Actual Performance: 9,082
                                                                                                      Actual          Target
         FY 2010 Actual Performance: 7,184                            Data Definition: Data represents the number of all FBI gang
                                                                      investigation arrests that were reported in the Integrated Statistical
         FY 2011 Actual Performance: 8,364                            Reporting and Analysis Application (ISRAA).

         FY 2012 Target:                        8,531                 Data Collection and Storage: Data is input by the field offices and
                                                                      stored in ISRAA.
         FY 2012 Actual Performance: 7,758                            Data Validation and Verification: Data was validated and verified in
                                                                      ISRAA.
Discussion of FY 2012 Results: The FBI has not met         Data Limitations: Data is calculated manually. FBI field personnel are
its target for this measure in FY 2012. However, as        required to enter accomplishment data within 30 days of the
                                                           accomplishment or a change in the status, such as those resulting from
discussed in the Data Limitations (see chart), the FBI     appeals. Data is compiled less than 30 days after the end of the fiscal
expects an additional increase in the final results for    year, and thus may not fully represent the accomplishments during the
                                                           reporting period.
this measure due to FBI field personnel having until
the end of the month to submit their statistics into the
FBI’s internal statistical accomplishments tracking system. The final end of year performance data for this
measure will be reflected in DOJ’s FY 2012 Violent Crime Priority Goal reporting process.
In comparison to FY 2011, the FBI has exceeded many statistical accomplishments for FY 2012. While the
FBI’s VGSSTFs fell short of their target of 8,531 arrests for FY 2012, VGSSTFs dismantled 123 criminal
organizations – the second highest dismantlement total of the past 13 fiscal years. In addition, FBI Special
Agents and task force officers posted a greater number of indictments/informations, convictions, and
disruptions. The FBI views indictments, convictions, disruptions, and dismantlements as more relevant
measures as these statistical accomplishments show a greater impact on combating violent gangs. As of
September 30, 2012, the VGSSTFs arrested 7,758 individuals; filed indictments/informations against 4,292
subjects; convicted 3,149 defendants; and disrupted the activities of 1,557 criminal enterprises.
The FBI recognizes that violent gangs are one of the biggest threats in the U.S. as 52 out of 56 FBI field
offices have ranked violent gangs as a priority criminal threat. VGSSTFs are examples of the FBI’s
longstanding and continued commitment to address violent gang activity across the U.S. As of September 30,
2012, the FBI’s safe streets and gang unit administered 164 VGSSTFs nationwide. Due to current budget
constraints faced by the U.S. Government (USG), it is vital that the FBI continue to maximize its resources
by partnering together to combat this pervasive threat.




Federal Bureau of Investigation                             - 10 -
                   Management’s Discussion and Analysis


Performance Measure: NEW MEASURE: Number                                                        NEW MEASURE:

of Intelligence Products to Support Federal, State, and                            Number of Intelligence Products to Support

Local Law Enforcement                                                              Federal, State, and Local Law Enforcement


         FY 2003 Actual Performance: Not Available
                                                                            60                                                    53
         FY 2004 Actual Performance: Not Available                          50                                         45               46

         FY 2005 Actual Performance: Not Available                          40                              32
                                                                            30
         FY 2006 Actual Performance: Not Available                                              20
                                                                            20
         FY 2007 Actual Performance: Not Available                          10

         FY 2008 Actual Performance: Not Available                            0
                                                                                    FY08       FY09         FY10      FY11        FY12
         FY 2009 Actual Performance: 20
                                                                                                   Actual        Target
         FY 2010 Actual Performance: 32
                                                                        Data Definition: Intelligence products such as Intelligence Reports,
         FY 2011 Actual Performance: 45                                 Bulletins, Assessments, and Notes are produced and disseminated to
                                                                        Federal, state, and local law enforcement agencies. These intelligence
         FY 2012 Target:                         46                     products aid law enforcement agencies in their efforts to address violent
                                                                        gangs as they focus on criminal activity, trends, growth, and migration of
         FY 2012 Actual Performance: 53                                 gangs domestically and internationally.

                                                                        Data Collection and Storage: All disseminated intelligence products
Discussion of FY 2012 Results: The FBI met and               are uploaded into National Gang Intelligence Center (NGIC) Online.
                                                             Reports are generated through NGIC Online to track the type and
exceeded its target for this measure in FY 2012 for the      number of products disseminated.
number of intelligence products produced in support of       Data Validation and Verification: The Violent Criminal Threat Section
federal, state, and local investigations that are focused    management has the ability to run reports to verify the number of reports
                                                             produced and disseminated.
on gangs posing a significant threat to the U.S. NGIC
integrates intelligence from across federal, state, and      Data Limitations: None.
local law enforcement communities on the growth,
migration, criminal activity, and association of violent gangs. NGIC supports law enforcement by sharing
timely and accurate information and by providing strategic, tactical, and analytical intelligence products.
Products are defined as intelligence products that have a nexus to gang matters. These intelligence products
include Intelligence Bulletins, Intelligence Assessments, Intelligence Reports, Situational Awareness
Bulletins, and Gang Information Reports. NGIC projected it would produce and disseminate 46 intelligence
products in FY 2012. However, NGIC surpassed this goal by producing 53 intelligence products.
In order to accomplish the target set for this measure, NGIC conducted outreach to law enforcement
organizations to promote the existence and use of NGIC Online. Through NGIC Online, investigators
throughout the country can submit requests for intelligence and analytical support electronically and receive
the resulting analytical products electronically. NGIC Online also allows the requestor to check the status of
the request online. As a result of the successful implementation of NGIC Online, law enforcement officers
can obtain gang intelligence more quickly and effectively. NGIC Online thus represents, and promotes, the
efficient use of law enforcement resources.

Gangs/Criminal Enterprises – Consolidated Priority Organization Target (CPOT) DTOs
In FY 2003, DOJ developed a single national list of criminal enterprises engaged in major drug trafficking
and money laundering organizations. This list of targets, the CPOT list, is updated periodically and reflects
the most significant international narcotic suppliers (and related money laundering organizations), poly-drug
traffickers, clandestine drug manufacturers and producers, and major drug transporters supplying the U.S.



Federal Bureau of Investigation                              - 11 -
                Management’s Discussion and Analysis


The FBI has developed a comprehensive counter-drug strategy designed to investigate and prosecute illegal
drug traffickers and distributors, reduce drug related crime and violence, provide assistance to other law
enforcement agencies, and strengthen international cooperation. The strategy focuses the FBI's counter-drug
resources on identified CPOT organizations associated primarily with Colombian, Mexican, and Caribbean
drug trafficking organizations with the most adverse impact on U.S. national interests.
Performance Measure: CPOT-linked DTOs
                                                                              CPOT-linked DTOs Dismantled
Dismantled
        FY 2003 Actual Performance: 15                       30                                                          28

        FY 2004 Actual Performance: 12                       25                                                    22
                                                                                                       20
                                                             20                18 17             18
        FY 2005 Actual Performance: 18                            15                       15                                 15
                                                             15          12                                  12
        FY 2006 Actual Performance: 17
                                                             10
        FY 2007 Actual Performance: 15                        5
        FY 2008 Actual Performance: 18                        0
                                                                  FY03        FY05        FY07        FY09        FY11
        FY 2009 Actual Performance: 20
                                                                                      Actual      Target
        FY 2010 Actual Performance: 12
                                                          Data Definition: Dismantlement means destroying the organization’s
        FY 2011 Actual Performance: 22                    leadership, financial base, and supply network such that the
                                                          organization is incapable of operating and/or reconstituting itself.
        FY 2012 Target:                  15
                                                          Data Collection and Storage: The data source is the FBI's ISRAA
                                                          database that tracks accomplishments from inception to closure.
        FY 2012 Actual Performance: 28
                                                          Data Validation and Verification: Data is reviewed and approved by
Discussion of FY 2012 Results: The FBI met and            an FBI field manager, and subsequently verified through inspection.
                                                          Inspections occur at least annually, tracing sampled data to source
exceeded its target for this measure in FY 2012.          documents in FBI files. In addition, program managers at FBI HQ
                                                          verify each investigation’s link to an organization on the CPOT list.
In FY 2012, the FBI continued implementing the
                                                          Data Limitations: FBI field personnel are required to enter
Southwest Border Strategy which includes the              accomplishment data within 30 days of the accomplishment or a
establishment of a Latin America/Southwest Border         change in the status, such as those resulting from appeals. Data is
                                                          compiled less than 30 days after the end of the fiscal year, and thus
Threat Section in the Criminal Investigative Division.    may not fully represent the accomplishments during the reporting
                                                          period.
The section has allowed the FBI to dedicate more
direct appropriation resources to the threats along the
Southwest Border, including numerous Mexican
Criminal Enterprises.
The FBI is also a partner on the Organized Crime Drug Enforcement Task Force (OCDETF) Strike Forces.
This partnership fosters the intelligence sharing and coordination necessary to achieve an intelligence-driven,
multi-agency strategic enforcement approach to investigations. The OCDETF Executive Office has
established co-located Strike Forces in key cities around the country. These Strike Forces serve a dual
purpose through aggressively targeting CPOT and high-level trafficking organizations and functioning as a
central point of contact for OCDETF agents and prosecutors nationwide by gathering intelligence and
disseminating investigative leads throughout the country. The OCDETF Strike Forces advance drug
trafficking investigations by bringing together the resources and expertise of OCDETF's participating
investigative agents and prosecutors. By coordinating these efforts, the participants eliminate superfluous
efforts and save valuable resources.




Federal Bureau of Investigation                     - 12 -
                   Management’s Discussion and Analysis


As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2014 President’s Budget.

Performance Measure: CPOT-linked DTOs
                                                                                      CPOT-linked DTOs Disrupted
Disrupted
         FY 2003 Actual Performance: 41                             60                                                     54
                                                                                                          50
                                                                                                   45                             48
         FY 2004 Actual Performance: 27 	                           50
 41
                                                                                                                      40
                                                                    40
                       36               35
         FY 2005 Actual Performance: 25                                          27                                                    30
                                                                    30                  25
         FY 2006 Actual Performance: 36
                                                                    20
         FY 2007 Actual Performance: 45                             10
         FY 2008 Actual Performance: 50                               0
                                                                          FY03         FY05        FY07        FY09        FY11
         FY 2009 Actual Performance: 35                                                       Actual      Target
         FY 2010 Actual Performance: 40 	                        Data Definition: Disruption means impeding the normal and effective
                                                                 operation of the targeted organization, as indicated by changes in
         FY 2011 Revised Performance: 54 	                       organizational leadership and/or changes in methods of operation,
                                                                 including, for example, financing, trafficking patterns, communications
                                                                 or drug production.
         FY 2012 Target:                        30
                                                                 Data Collection and Storage: The data source is the FBI's ISRAA
         FY 2012 Actual Performance: 48                          database that tracks accomplishments from inception to closure.
                                                                 Data Validation and Verification: Data is reviewed and approved by
Discussion of FY 2012 Results: The FBI met and                   an FBI field manager, and subsequently verified through inspection.
exceeded its target for this measure in FY 2012.	                Inspections occur at least annually, tracing sampled data to source
                                                                 documents in FBI files. In addition, program managers at FBI HQ
                                                                 verify each investigation’s link to an organization on the CPOT list.
In FY 2012, the FBI continued implementing the
Southwest Border Strategy which includes the           Data Limitations: FBI field personnel are required to enter
                                                       accomplishment data within 30 days of the accomplishment or a
establishment of a Latin America/Southwest             change in the status, such as those resulting from appeals. Data is
                                                       compiled less than 30 days after the end of the fiscal year, and thus
Border Threat Section in the Criminal                  may not fully represent the accomplishments during the reporting
Investigative Division. The section has allowed        period.
the FBI to dedicate more direct appropriation
resources to the threats along the Southwest Border, including numerous Mexican Criminal Enterprises.
The FBI is also a partner on the OCDETF Strike Forces. This partnership fosters the intelligence sharing and
coordination necessary to achieve an intelligence-driven, multi-agency strategic enforcement approach to
investigations. The OCDETF Executive Office has established co-located Strike Forces in key cities around
the country. These Strike Forces serve a dual purpose through aggressively targeting CPOT and high-level
trafficking organizations and functioning as a central point of contact for OCDETF agents and prosecutors
nationwide by gathering intelligence and disseminating investigative leads throughout the country. The
OCDETF Strike Forces advance drug trafficking investigations by bringing together the resources and
expertise of OCDETF's participating investigative agents and prosecutors. By coordinating these efforts, the
participants eliminate superfluous efforts and save valuable resources.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. FY 2012 final results will be
reflected in the FY 2014 President’s Budget.




Federal Bureau of Investigation                              - 13 -
                 Management’s Discussion and Analysis


PROGRAM: White-Collar Crime
Background/Program Objectives: The FBI’s White-Collar Crime (WCC) program investigates criminals
and criminal enterprises that seek illicit gains through fraud and guile. Illegal activities investigated include
corporate, health care, securities and commodities, financial institution, mortgage, government (defense
procurement and other areas), insurance, mass marketing, and bankruptcy fraud; environmental crimes; and
money laundering.
U.S. citizens and businesses lose billions of dollars each year to criminals engaged in non-violent fraudulent
enterprises. The globalization of economic and financial systems, technological advances, declining
corporate and individual ethics, and the sophistication of criminal organizations have resulted in annual
increases in the number of illegal acts characterized by deceit, concealment, or violations of trust. These
crimes contribute to a loss of confidence in financial institutions, public institutions, and industry.
Performance Measure: Number of Criminal
Enterprises Engaging in White-Collar Crimes                           Number of Criminal Enterprises Engaging in
Dismantled.                                                               White-Collar Crimes Dismantled
                                                                450                                                          409
        FY 2003 Actual Performance: 73                          400                                                    368      360
                                                                350                                              309
        FY 2004 Actual Performance: 137                         300
                                                                                               277
                                                                                                           250
                                                                                         231
                                                                250                                  211
        FY 2005 Actual Performance: 163                                            163
                                                                200          137
        FY 2006 Actual Performance: 231                         150
                                                                        73
                                                                100
        FY 2007 Actual Performance: 277                          50
                                                                  0
        FY 2008 Actual Performance: 211                                FY03        FY05        FY07        FY09        FY11

        FY 2009 Actual Performance: 250                                                  Actual       Target

        FY 2010 Actual Performance: 309                    Data Definition: Dismantlement means destroying the organization’s
                                                           leadership, financial base, and supply network such that the
                                                           organization is incapable of operating and/or reconstituting itself.
        FY 2011 Revised Performance: 368
                                                           Data Collection and Storage: The data source is the FBI's ISRAA
        FY 2012 Target:                    360             database that tracks accomplishments from inception to closure.

                                                           Data Validation and Verification: Data is reviewed and approved by
        FY 2012 Actual Performance: 409                    an FBI field manager, and subsequently verified through inspection.
                                                           Inspections occur at least once annually, tracing sampled data to
Discussion of FY 2012 Results: The FBI met and             source documents contained in FBI files.
exceeded its target for this measure in FY 2012	           Data Limitations: FBI field personnel are required to enter
                                                           accomplishment data within 30 days of the accomplishment or a
through proactive investigative techniques and             change in the status, such as those resulting from appeals. Data is
technological advances. Increased utilization of           compiled less than 30 days after the end of the fiscal year, and thus
                                                           may not fully represent the accomplishments during the reporting
Group I Undercover Operations, Title IIIs, and             period.
other advanced techniques not commonly utilized in
past WCC cases enabled significant investigative
achievements against WCC threat actors.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. FY 2012 final results will be
reflected in the FY 2014 President’s Budget.




Federal Bureau of Investigation                       - 14 -
                Management’s Discussion and Analysis


STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels 7 percent of the
FBI’s Net Cost supports this Goal.


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory basis
for management’s responsibility for and assessment of internal accounting and administrative controls. Such
controls include program, operational, and administrative areas, as well as accounting and financial
management. The Integrity Act requires federal agencies to establish controls that reasonably ensure
obligations and costs are in compliance with applicable law; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for to maintain accountability over the assets. The Integrity Act also requires
agencies to annually assess and report on the internal controls that protect the integrity of federal programs
(FMFIA Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).
Internal Controls Program
Management of the FBI is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular
A-123, Management’s Responsibility for Internal Control, the FBI conducted its annual assessment of the
effectiveness of internal controls to support effective and efficient programmatic operations, reliable
financial reporting, and compliance with applicable laws and regulations (FMFIA Section 2). The FBI also
assessed whether its financial management systems conform to financial systems requirements (FMFIA
Section 4). Based on the results of the assessments, the FBI provided reasonable assurance that its internal
controls and financial management systems met the objectives of the FMFIA, with the exception of the
reportable conditions and nonconformances summarized below. Corrective Action Plans were established to
institute programs and/or controls to eliminate these conditions.
FMFIA Section 2 – Reportable Conditions
The FBI designated two items under Section 2 as reportable conditions:
•	 National Security Letters (NSLs): In March 2007, the Office of the Inspector General (OIG) reported
   that the FBI’s use of NSLs grew dramatically and shifted in focus since the enactment of the Patriot Act
   and that NSLs served as an indispensable investigative tool. The OIG found issues with the FBI’s
   tracking, reporting, and guidance regarding NSL usage. A March 2008 follow-up review assessed the
   FBI’s corrective actions and indicated the FBI and Department had made significant progress in
   implementing the 2007 recommendations. Improvements included strengthening the controls and
   automated workflow governing the request, review, and approval of NSLs; field office monthly
   reconciliations of NSL usage; and improving the database used to track NSL use. The FBI's actions to
   remediate the March 2007 OIG findings were completed by June 2007 and validated prior to December
   31, 2008. The FBI agreed to each of the recommendations proposed in the 2008 report and implemented
   the proposed changes where appropriate. Several of the recommendations, however, were rendered moot
   by the FBI’s implementation of the NSL Subsystem. The FBI continues to dedicate personnel and
   resources to ensure appropriate use of NSLs.
•	 Management of the Sentinel Program: The Government Accountability Office (GAO) audited the FBI’s
   delivery of the Sentinel Program during FY 2007, to evaluate the FBI’s use of effective acquisition


Federal Bureau of Investigation                    - 15 -
                Management’s Discussion and Analysis


    practices and the basis for estimating schedule and costs. Based on the report, the FBI was managing the
    Sentinel program in accordance with many approved key system acquisition best practices and had
    established several successful processes for identifying and mitigating associated risks. The GAO also
    found the FBI was not in accordance with best practices concerning overseeing contractors, and the
    process to formulate the program’s schedule and cost estimates did not adhere to governmental best
    practices. The FBI works actively with GAO to ensure the FBI is using best practices in different
    approaches for development (e.g., agile development). The FBI completed remediation and provided
    additional information to GAO in 2010. Subsequently, GAO has changed the status of the
    recommendation to closed and implemented. The FBI will discontinue reporting on this issue in FY
    2013.
FMFIA Section 4 – Nonconformances
The FBI provided reasonable assurance that its internal control over financial management systems was
operating effectively, except for three system nonconformances as summarized below:
•	 Financial Systems Compliance: The FBI's Financial Management System (FMS) was inadequate and
   audit reports indicated there were concerns regarding its compliance with financial systems requirements.
   The FBI and the DOJ's Chief Information Officer addressed the most severe findings to minimize
   financial reporting risks until the DOJ Unified Financial Management System (UFMS) is implemented.
•	 Inadequate Accountability Over the Health Insurance Portability and Accountability Act of 1996
   (HIPAA) Funding of Health Care Fraud Investigations: In a response to an April 2005 GAO report, the
   FBI concurred that it did not adequately monitor use of health care fraud investigative resources. Due to
   the limitations of the FMS, the FBI was not in a position to determine whether all transferred funds were
   spent for the purpose provided. The GAO provided four recommendations, two enhancing the FBI's
   accountability over the HIPAA transfers and two augmenting the new UFMS cost-tracking capabilities
   in the long term. Enhancements to the FBI's accountability were completed and the remaining
   recommendations will be completed with the implementation of UFMS.
•	 Management of Confidential Case Funds and Telecommunication Costs: Reviewing cases between 2004
   and 2006, a January 2008 OIG report on the FBI Management of Confidential Case Funds and
   Telecommunication Costs noted that the FBI’s FMS, “lacks the controls necessary to prevent theft and,
   as such, is not an effective financial system for FBI employees to use to account for and approve
   confidential case funds.” The OIG provided 16 recommendations to improve the FBI’s internal financial
   controls related to the tracking, payment, and processing of undercover telecommunications expenses
   and case funds. The FBI initiated actions - many of them independent of the OIG audit - to improve
   processes and provide additional oversight of confidential case funds. Of the 16 recommendations, the
   OIG has considered the FBI’s actions sufficient to resolve all recommendations and close 11; the FBI is
   awaiting the OIG’s final determination as to whether additional actions were sufficient to close the
   remaining five recommendations.
OMB Circular A-123, Appendix A – Internal Control Over Financial Reporting
In FY 2012, the FBI documented and assessed its significant business processes according to the
requirements of DOJ’s Implementation Plan for compliance with OMB Circular A-123, Management’s
Responsibility for Internal Control, revised December 21, 2004. The revised Circular A-123 re-examined
internal control requirements for federal agencies in light of the requirements for publicly-traded companies
implemented by the Sarbanes-Oxley Act of 2002. The full Circular A-123, Appendix A: Internal Control
Over Financial Reporting assessment covered all processes deemed to be significant to the FBI and the
Department of Justice. These processes were: Budget and Funds Management, Revenue and Receivables



Federal Bureau of Investigation                    - 16 -
                Management’s Discussion and Analysis


Management, Procurement, Property Management, Treasury and Fund Balance with Treasury, Human
Resources, Financial Reporting, and Information Systems. The results of the assessment indicated no
material weaknesses in the FBI’s internal control over financial reporting as of June 30, 2012.
Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA or Act) was designed to improve
federal financial and program managers’ accountability, provide better information for decision-making, and
improve the efficiency and effectiveness of federal programs. FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger (USSGL) at the transaction
level. Furthermore, the Act requires independent auditors to report on agency compliance with the three
requirements in the financial statement audit report. The Federal Information Security Management Act
states that to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.
FFMIA Compliance Determination
During FY 2012, the FBI performed a self-assessment, and documented several areas in which its key
financial management systems, principally FMS, have a moderate risk of not providing reliable and
consistent information for decision-making. As a result, the FBI reported several instances in which its key
financial management systems do not comply with certain provisions of FFMIA.
•	 Federal Financial Management System Requirements: The FBI relies upon several systems to provide
   financial information that is necessary to support their financial management needs. These systems,
   other than the FMS, include the Property Management Application, Vehicle Management Application,
   the Fixed Assets module of FMS, and the Reimbursable Agreement Management System. The FBI’s
   core financial systems are not integrated through a common database or interfaced electronically to meet
   data and processing requirements.
•	 Transactions Entered at the Standard General Ledger Level: The FBI’s financial management systems
   are not currently configured to use the USSGL at the transaction level. Specifically, certain transactions
   are processed outside of the FBI’s core financial accounting system, but are not recorded at the
   transaction level using the USSGL. These transactions must be modified when recorded into the core
   financial accounting system through a manual or automated batch transaction process.
Legal Compliance
Except as discussed above, the FBI is not aware of any additional instances of material noncompliance with
laws or regulations identified in OMB guidance, or with any laws or regulations that have a direct and
material effect on the FBI’s financial statements.




Federal Bureau of Investigation                    - 17 -
                Management’s Discussion and Analysis


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
Factors and Future Trends Affecting Federal Bureau of Investigation Programs’ Goal Achievement
The Changing Threat
Over the past decade, the FBI has overhauled its counterterrorism operations, expanded its intelligence
capabilities, modernized its business practices and technology, and improved coordination with its partners.
However, the U.S. continues to face significant challenges to national security from increasingly
sophisticated internal and external threats. In addition to established and lone wolf actors, the U.S. faces
WMD, foreign intelligence, cyber, and criminal threats, in areas such as public corruption, complex financial
crimes, violent gangs, and violent crime. Significant advances in global technological markets over the past
few years have increased the risk of the FBI’s technical capabilities falling significantly behind those of our
adversaries. To avert this risk and to enhance the FBI’s capabilities to combat rapidly changing cyber threats,
the FBI is in the process of implementing its Next Generation Cyber initiative. The initiative will more
strategically focus the efforts of the FBI’s Cyber Division on the greatest cyber threat – intrusions into
government and industry computers and networks.
Not all threats to the U.S. come from abroad. In FY 2012, the FBI and the broader IC dedicated significant
time and resources to the Insider Threat. Executive Order (EO) 13587, Structural reforms to improve the
security of classified networks and the responsible sharing and safeguarding of classified networks,
identifies DOJ and the Office of the Director of National Intelligence as lead agencies to ensure compliance
with the EO mandates across the IC. Due to this EO, the FBI leads the initiative to develop policies and
standards, assist the USG components with implementing effective insider threat programs, conduct
assessments of existing programs, and produce and share training materials with all USG agencies and
partners.
The Gang Threat
Gangs are expanding, evolving and posing an increasing threat to communities nationwide. Gangs continue
to commit criminal activity, recruit new members in urban, suburban, and rural regions across the U.S., and
develop criminal associations that expand their influence over criminal enterprises, particularly street-level
drug sales. The most notable emerging trends have been the overall increase in gang membership, and the
expansion of criminal street gangs’ control of street-level drug sales and collaboration with rival gangs and
other criminal organizations.
Gangs are sophisticated criminal networks with members who are violent, distribute wholesale quantities of
drugs, and develop and maintain close working relationships with members and associates of transnational
criminal/DTOs. They are becoming more violent while engaging in less typical and lower-risk crime, such
as prostitution and white-collar crime. Furthermore, gangs are more adaptable, organized, sophisticated, and
opportunistic, exploiting new and advanced technology as a means to recruit, communicate discretely, target
their rivals, and perpetuate their criminal activity.
Constrained Budget Environment
While the threats facing the U.S. continue to evolve, the FBI and the rest of the federal government must
operate within resource constraints. Due to the high national debt and the overall state of the economy,
federal spending is being closely scrutinized. In accordance with recent OMB memorandum, the FBI has
taken many steps to effectively operate within its resource constraints. The FBI continues to identify
opportunities to modernize operations and to automate and streamline processes. Such innovations include:
•	 Implementation of new space allocation standards. The new standards reduce office sizes, consolidate
    special purpose rooms, and reduce the anticipated growth factor for facilities. The FBI also reduced the



Federal Bureau of Investigation                     - 18 -
                Management’s Discussion and Analysis


   standard furniture workstation size and is currently in the process of researching and acquiring standard
   benching workstations to further increase space density.
•	 Consolidation of FBI public access phone lines scattered across the country to one central location,
   freeing up personnel in the field offices to meet unaddressed operational requirements.
•	 Adjustment of the FBI’s fleet replacement and usage policies.
•	 Contractor conversions into less expensive government positions. The FBI’s FY 2012 Operating Plan
   included 550 positions in support of this effort and the FBI anticipates requesting additional conversions
   in the future.
Strategy Management System (SMS)
How does an organization as large, complex, and diverse as the FBI – with a dual law enforcement and
national security mission – evolve to stay ahead of threats to its nation?
In today’s environment, the FBI needs a clear, long-term strategy to achieve the mission, and a way to
manage that strategy to ensure the organization is positioned to address both current and future threats.
Based on the widely utilized Balanced Scorecard methodology, the FBI SMS is the management tool that the
FBI Director and senior leaders use to manage the FBI strategy and test whether the strategy is working. Is
the FBI headed in the right direction over the next three to five years? Are FBI resources aligned to its
highest priorities and greatest risks? Which capabilities and internal processes does the FBI need to enhance?
What new training and technology must the FBI provide to its people so they can accomplish the dual
mission? These are the types of questions that the SMS framework seeks to answer.
SMS has four key components: Strategic Shifts (FBI vision), Strategy Map (FBI strategy), strategic
measures and targets, and priority initiatives. Starting in FY 2006, and continually refined since, SMS
enables all Bureau employees to speak the same language with regard to strategic planning and execution.
Today, SMS is used to help drive program management, budget, inspection, and overall accountability for
performance.
Unified Financial Management System (UFMS)
On October 1, 2012, the FBI deployed UFMS Phase II to CJIS; the Chicago, Louisville, and Pittsburgh field
offices; the Ottawa Legat; and Finance Division (FD) headquarters along with limited functionality for the
budgetary personnel in the Cyber Division; Counterintelligence Division; CTD; Criminal Investigative
Division; and Critical Incident Response Group. The FBI kicked off its UFMS implementation on
November 15, 2010, anticipating enterprise-wide deployment in FY 2014. Since then, the FBI established
and staffed its UFMS Project Management Office and established the FBI UFMS Project Team site at the
Financial Systems Implementation Office facility in McLean, Virginia. The UFMS Project Team
documented and validated the current business process environment; identified FBI specific business
processes; completed requirement gathering sessions used to identify and validate the FBI’s system
requirements; documented and verified the FBI UFMS future business processes through facilitated “to be”
working sessions; and held UFMS familiarization sessions and demonstrations to help users become more
familiar with the UFMS functionality. After the requirements gathering sessions, the UFMS Project Team
completed design of the UFMS business processes and interfaces by conducting preliminary design reviews
and critical design reviews for each design; conducted system test led by the implementation team and user
acceptance testing led by the FD subject matter experts; conducted business process training for the user
community to encourage knowledgeable, active, and enthusiastic users.
Bureau-wide deployment of UFMS, with additional functionality and reporting capabilities, is scheduled for
October 1, 2013. Through UFMS, the FBI will implement a web-based enterprise-wide core financial and
acquisitions management system to improve its financial and acquisitions management performance with


Federal Bureau of Investigation                     - 19 -
                Management’s Discussion and Analysis


current technology and innovative business practices, resulting in improved service to FBI agents, decision
makers, and other customers.
Asset Management System (AMS) – Maximo
In May 2010, the FBI initiated procurement for enhanced asset management technology to modernize asset
tracking and reporting, anticipating enterprise-wide deployment in FY 2013. AMS Phase I efforts began in
November 2010 with selection of a vendor to assist the FBI transition from using four legacy systems to a
consolidated AMS. IBM's Maximo platform solution was selected to replace legacy system technology with
an enterprise-wide asset tracking solution that will manage nearly 600,000 FBI assets. Since the project
kickoff, the AMS project team documented and validated current and “to be” business processes and focused
on development efforts to meet the varied needs of the FBI’s property custodians. The FBI spent six months
testing AMS and validating business processes and interfaces to ensure its accuracy in performing the
functions as designed. Significant effort had been placed in simulating every day scenarios within the test
environment, identifying defects, and implementing necessary corrective measures. In April of 2012, the
FBI piloted AMS in nine FBI field offices and Headquarters divisions. On October 9, 2012, the FBI
deployed AMS throughout the enterprise. This system will improve the accuracy of current inventory
processes and control, reduce administrative workload associated with manual inventory processes, and
provide a scalable system that can be integrated with future system upgrades.
Records Management Division (RMD) User Fee Collections for National Name Check Program
(NNCP)
The FBI’s RMD is currently updating the fee structure of the NNCP. Consistent with guidance in OMB
Circular A-25, the FBI evaluates the user fee structure at least every two years, or as prompted by major
program changes. In addition, the NNCP will incur significant costs as it continues to implement
improvements in information technology to improve the efficiency and effectiveness of the NNCP.
Criminal Justice Information Services Division (CJIS) User Fee Collections for Criminal History
Record Information (CHRI)
The FBI’s CJIS completed its user fee study, which updated the fee structure for CHRI checks for non­
criminal justice purposes. Consistent with guidance in OMB Circular A-25, the FBI evaluates the user fee
structure at least every two years, or as prompted by major program changes. CJIS experienced a significant
increase in demand for CHRI checks for non-criminal justice purposes. As a result, CJIS adjusted the fee
schedule (effective March 19, 2012) to reflect the impact of the increased volume on the per transaction costs.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT IMPLEMENTATION
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Department implemented a top-down approach to
assess the risk of significant improper payments across all five of the Department’s mission-aligned
programs, and to identify and recapture improper payments through a payment recapture audit program. The
approach promotes consistency across the Department and enhances internal control related to preventing,
detecting, and recovering improper payments. Because of the OMB requirement to assess risk and report
payment recapture audit activities by agency programs, the results of the Department’s risk assessment and
recapture activities are reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the FBI assessed its activities for
susceptibility to significant improper payments. The FBI also conducted its payment recapture audit



Federal Bureau of Investigation                    - 20 -
                Management’s Discussion and Analysis


program in accordance with the Departmental approach. The FBI provided the results of both the risk
assessment and payment recapture audit activities to the Department for the Department-level reporting in
the FY 2012 Performance and Accountability Report.


LIMITATIONS OF THE FINANCIAL STATEMENTS
•	 The financial statements have been prepared to report the financial position and results of operations of
   the FBI, pursuant to the requirements of 31 U.S.C. 3515(b).
•	 While the statements have been prepared from the books and records of the FBI in accordance with U.S.
   generally accepted accounting principles for federal entities and the formats prescribed by OMB, the
   statements are in addition to the financial reports used to monitor and control budgetary resources which
   are prepared from the same books and records.
•	 The statements should be read with the realization that they are for a component of the USG, a sovereign
   entity.




Federal Bureau of Investigation                    - 21 -
This page intentionally left blank. 





           - 22 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     INDEPENDENT AUDITORS’ REPORTS




                  - 23 -
This page intentionally left blank. 





           - 24 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Investigation
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Federal
Bureau of Investigation (FBI) as of September 30, 2012 and 2011, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements” or “basic financial statements”) for the years then ended.
These consolidated financial statements are the responsibility of the FBI’s management. Our responsibility
is to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the FBI’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Investigation as of
September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.W to the consolidated financial statements, the FBI changed its presentation for
reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the FBI’s
combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

U.S. generally accepted accounting principles require that the information in Required Supplementary
Information, including Management’s Discussion and Analysis, be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial statements, is required by

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 25 -
Independent Auditors’ Report on Financial Statements
Page 2 of 2




the Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section is presented for the purpose of
additional analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2012, on our consideration of the FBI’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 5, 2012




                                               - 26 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Investigation
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2012 and 2011, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.W to the consolidated financial statements, the FBI changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for establishing and maintaining effective internal control over
financial reporting. In planning and performing our fiscal year 2012 audit, we considered the FBI’s
internal control over financial reporting by obtaining an understanding of the FBI’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the FBI’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the FBI’s internal control over financial reporting. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                       - 27 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2 of 2




financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

We noted certain additional matters that we have reported to management of the FBI in a separate letter
dated November 5, 2012.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                               - 28 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Director
Federal Bureau of Investigation
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2012 and 2011, and the related consolidated statements of net cost,
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.W to the consolidated financial statements, the FBI changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for complying with laws, regulations and contracts applicable to
the FBI. As part of obtaining reasonable assurance about whether the FBI’s consolidated financial
statements are free of material misstatement, we performed tests of the FBI’s compliance with certain
provisions of laws, regulations and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section
803(a) of the Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations and contracts applicable to the FBI. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described in the Exhibit, where the FBI’s financial
management systems did not substantially comply with federal financial management system requirements
because of the lack of a unified, integrated financial management system.

.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 29 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2 of 5




The FBI’s financial management systems also do not permit application of the United States Government
Standard General Ledger at the transaction level. Specifically, certain transactions are processed outside of
the FBI’s core financial accounting system, but are not recorded at the transaction level using the United
States Government Standard General Ledger. These transactions must be modified when recorded into the
core financial accounting system through a manual or automated batch transaction process.

The results of our tests of FFMIA disclosed no instances in which the FBI’s financial management systems
did not substantially comply with applicable federal accounting standards.

The FBI’s written response to the instances of FFMIA noncompliance identified in our audit and presented
in the Exhibit was not subjected to the auditing procedures applied in the audit of the FBI’s consolidated
financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                               - 30 -
Independent Auditors’ Report on Compliance and Other Matters
Page 3 of 5




                                                                                                EXHIBIT


                                INSTANCES OF NONCOMPLIANCE


This section contains our discussion of the instances of noncompliance with the Federal Financial
Management Improvement Act of 1996 (FFMIA) that we noted during our fiscal year 2012 audit.
During fiscal year 2012, the FBI performed a self-assessment, in accordance with OMB Circular
No. A-123, and documented several areas in which its key financial management systems, principally the
Financial Management System (FMS), have a moderate risk of not providing reliable and consistent
information for decision-making. As a result, the FBI reported several instances in which its key financial
management systems do not comply with certain provisions of FFMIA.
We concur with the FBI’s assessment and also concluded that the FBI’s key financial systems do not
substantially comply with certain requirements of FFMIA section 803(a). Specifically, we noted
deficiencies in the following categories:
• Federal Financial Management System Requirements: Many of the FBI’s financial management systems
  pre-date the existing applicable functional requirements for the design, development, operation, and
  maintenance of financial management systems. As a result, these financial management systems do not
  comply with all of the functional requirements included in OMB circulars and bulletins, and the U.S.
  Department of the Treasury’s Treasury Financial Manual.
 The FBI relies upon several systems, outside of its core general ledger system, to provide financial
 information that is necessary to support the FBI’s financial management needs. These systems used by
 the FBI during fiscal year 2012 include the Available Funds File, the Procurement Module of FMS, the
 Enterprise Process Automation System, the Property Management Application (PMA), the Vehicle
 Management Application (VMA), the Fixed Assets module of FMS (FA), and the Reimbursable
 Agreement Management System 2.0. The FBI’s core financial systems are not considered unified
 because the FMS general ledger, certain modules of FMS, and other systems are not linked together
 electronically in an efficient and effective manner to provide the agency-wide financial system support
 necessary to carry out the agency’s mission and support the agency’s financial management needs.
 For example, property acquisitions must be recorded manually into both the FMS and PMA, and then
 depreciation information must be calculated in the FA and recorded into the FMS for financial statement
 and internal reporting purposes. Additionally, FMS is unable to capture all open obligations causing a
 variance between the population of undelivered orders from the Procurement Module of the FMS and the
 General Ledger Module of the FMS.
 Further, certain modules within the FMS and other systems, such as the VMA and the Procurement
 Module of FMS, do not have historical reporting capabilities to meet the data and processing
 requirements of the FBI.




                                              - 31 -
Independent Auditors’ Report on Compliance and Other Matters
Page 4 of 5




• Application of the United States Government Standard General Ledger at the Transaction Level: Certain
  transactions are processed outside of the FBI’s core financial accounting system, but are not recorded at
  the transaction level using the United States Government Standard General Ledger. These transactions
  must be modified when recorded into the core financial accounting system through a manual or
  automated batch transaction process.
Due to the issues noted above, the FBI’s financial statements have the potential to be misstated. As a
result, the personnel involved in preparing the financial statements and other financial reports have been
required to maintain numerous manual and automated processes in order to compensate for the controls and
reporting abilities that are lacking in the FBI’s financial management systems.

We make no recommendation corresponding with the instances of FFMIA noncompliance because the FBI
has stated that it will be migrating to the Department of Justice Unified Financial Management System, and
costs to correct the FFMIA deficiencies in the current accounting system are not justified.

Management Response:

The FBI concurs with the finding. To resolve this finding, the FBI has made an absolute commitment to
implement the Department of Justice (DOJ) Unified Financial Management System (UFMS). Since 2002,
DOJ has been leading the effort to implement a department-wide financial and procurement management
system that will enhance current and future financial management and procurement operations and
standardize key business practices. DOJ is addressing these needs through implementation of UFMS, an
integrated commercial-off-the-shelf application that will replace the FBI’s current Financial Management
System (FMS) and legacy financial management and procurement systems throughout the Department.
UFMS will fully implement all current federal financial management system requirements and applicable
federal accounting standards, including recording all transactions at the USSGL level. To date, DOJ has
successfully implemented UFMS at the Drug Enforcement Administration and the Bureau of Alcohol,
Tobacco, Firearms and Explosives, and is planning to implement UFMS at the U.S. Marshals Service in
FY 2013.
The FBI’s implementation of UFMS is designed to meet the Bureau’s specific business requirements,
integrate business data and activities, and eliminate or interface with its various feeder systems, while at the
same time meeting DOJ’s goal to standardize processes across the department. Initial planning was
completed by the DOJ UFMS program management office, supported by its Implementation & Integration
(I&I) contractor, during FY 2008. DOJ issued a task order to the I&I contractor to complete the planning
phase in October 2010, and issued an additional task order to undertake FBI implementation tasks and
activities in August 2011. The FBI plans to implement UFMS in three phases—with Phase 1 the FBI
implemented the UFMS Contract Writing Tool in FY 2008; with Phase 2 the FBI successfully
implemented the UFMS Pilot at the Criminal Justice Information Services Division; the Chicago,
Pittsburgh, and Louisville Field Offices (as well as the 5 FBI headquarters division budget offices that fund
those Field Offices); and Legat Ottawa on October 1, 2012, as planned; and with Phase 3 the FBI will fully
implement UFMS at the remaining FBI organizations, Field Offices, and Legats in FY 2014.

Prior to the UFMS implementation, the FBI implemented several projects to improve financial reporting
using the current FMS. These projects represent a series of bridge efforts and best-practice initiatives that
have helped the FBI move toward the implementation of UFMS. These initiatives included: archiving



                                                - 32 -
Independent Auditors’ Report on Compliance and Other Matters
Page 5 of 5




historic and obsolete FMS data; restructuring the chart of accounts; deploying an integrated financial
reporting tool; and deploying a modern graphical user interface (GUI).

The archive initiative removed a significant number of unneeded records from the FMS database, reducing
the data conversion risk to UFMS implementation. On October 1, 2010, the restructured chart of accounts
was deployed for all non-personnel funds, providing the FBI with funds control and financial tracking
against program and subprogram levels, supporting the financial management activities of headquarters and
field office divisions, satisfying the FBI’s financial reporting obligations to DOJ, and preparing the FBI for
migration to the budget and expense structure of UFMS. A comprehensive set of financial reports was
developed using a new strategic reporting tool and deployed to all field office divisions in July 2010 and to
headquarters divisions in October 2010. This tool provides FBI management with a standard set of reports
to meet internal financial management needs and will also be used with UFMS, helping to reduce the
impact to users when converting to UFMS. The GUI, which will facilitate the transition from the green-
screens used with FMS to the GUI-oriented UFMS, was deployed to field offices and headquarters
divisions in June 2010.

To resolve the findings related to the FBI’s property management systems, the Finance Division led the
Supply Chain Management (SCM) Program to improve the FBI’s asset management business processes by
implementing new technologies to streamline purchasing and payment activities and improve vendor
management, enhance management of assets and inventory processes, and improve management of its
growing fleet of vehicles. The SCM Program consolidated and replaced the Property and Vehicle
Management Applications (PMA and VMA), the Issued Personal Property (IPP) system, and the FMS
Fixed Asset (FA) Module in a new Asset Management System (AMS). AMS was successfully deployed to
all FBI offices on October 9, 2012. The implementation of this modern, integrated, commercial-off-the­
shelf asset management system provides improved linkages to the existing procurement processes in FMS;
improves the accountability, tracking and accuracy of assets recorded; allows for better performance and
metrics for financial statements and other reporting; and prepares for tighter integration with accounting
and procurement enabled by UFMS.




                                               - 33 -
This page intentionally left blank. 





           - 34 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     PRINCIPAL FINANCIAL STATEMENTS

           AND RELATED NOTES





                  - 35 -
This page intentionally left blank. 





           - 36 -
                                                   U.S. Department of Justice

                                                Federal Bureau of Investigation

                                                  Consolidated Balance Sheets

                                               As of September 30, 2012 and 2011


Dollars in Thousands                                                                       2012              2011

ASSETS (Note 2)
   Intragovernmental
       Fund Balance with U.S. Treasury (Note 3)                              $        3,601,365     $    3,618,458
       Accounts Receivable (Note 5)                                                     143,146            181,271
       Other Assets (Note 9)                                                             30,187             27,867
   Total Intragovernmental                                                            3,774,698          3,827,596

   Cash and Monetary Assets (Note 4)                                                    67,135              50,843
   Accounts Receivable, Net (Note 5)                                                    27,069              32,369
   Inventory and Related Property, Net (Note 6)                                          7,310               8,103
   General Property, Plant and Equipment, Net (Note 8)                               2,811,251           2,558,525
   Advances and Prepayments                                                             48,789              47,144
Total Assets                                                                 $      6,736,252       $   6,524,580

LIABILITIES (Note 10)
   Intragovernmental
       Accounts Payable                                                      $          183,590     $     229,722
       Accrued Federal Employees' Compensation Act Liabilities                           31,101            30,829
       Other Liabilities (Note 14)                                                       99,996           121,218
   Total Intragovernmental                                                              314,687           381,769

   Accounts Payable                                                                    462,174             416,733
   Actuarial Federal Employees' Compensation Act Liabilities                           176,422             182,426
   Accrued Payroll and Benefits                                                        213,448             208,273
   Accrued Annual and Compensatory Leave Liabilities                                   277,074             270,528
   Environmental and Disposal Liabilities (Note 11)                                     10,219               9,987
   Seized Cash and Monetary Instruments (Note 13)                                       45,262              42,880
   Contingent Liabilities (Note 15)                                                     11,788              52,335
   Other Liabilities (Note 14)                                                           6,342               4,687
Total Liabilities                                                            $      1,517,416       $   1,569,618

NET POSITION
   Unexpended Appropriations                                                 $       2,151,355      $    2,194,512
   Cumulative Results of Operations                                                  3,067,481           2,760,450
Total Net Position                                                           $      5,218,836       $   4,954,962

Total Liabilities and Net Position                                           $      6,736,252       $   6,524,580




Federal Bureau of Investigation                        - 37 -
                       The accompanying notes are an integral part of these financial statements.
                                                                         U.S. Department of Justice

                                                                       Federal Bureau of Investigation

                                                                    Consolidated Statements of Net Cost

                                                          For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands

                                                 Gross Costs                                          Less: Earned Revenues                            Net Cost of
                           Intra-                 With the                                     Intra-         With the                                 Operations
             FY         governmental               Public                  Total            governmental       Public                  Total            (Note 16)

Goal 1      2012       $       1,424,724     $         3,917,146    $        5,341,870     $         458,969     $         1,870   $     460,839   $        4,881,031
            2011       $       1,420,503     $         3,802,831    $        5,223,334     $         446,885     $           721   $     447,606   $        4,775,728

Goal 2      2012                 790,598               2,173,677             2,964,275               340,061                   -         340,061            2,624,214
            2011                 813,795               2,178,615             2,992,410               318,479                   -         318,479            2,673,931

Goal 3      2012                 280,253                 770,530             1,050,783               334,507             151,387         485,894             564,889
            2011                 275,867                 738,525             1,014,392               335,879             175,158         511,037             503,355

Total       2012       $      2,495,575      $        6,861,353     $       9,356,928      $      1,133,537      $       153,257   $   1,286,794   $       8,070,134
            2011       $      2,510,165      $        6,719,971     $       9,230,136      $      1,101,243      $       175,879   $   1,277,122   $       7,953,014



Goal 1    Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2    Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3    Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
          State, Local, Tribal, and International Levels




Federal Bureau of Investigation                                                        - 38 -
                                                 The accompanying notes are an integral part of these financial statements.
                                             U.S. Department of Justice

                                           Federal Bureau of Investigation

                                Consolidated Statements of Changes in Net Position

                              For the Fiscal Years Ended September 30, 2012 and 2011


   Dollars in Thousands                                                            2012                     2011




   Unexpended Appropriations
    Beginning Balances                                              $      2,194,512              $   2,255,206

     Budgetary Financing Sources
      Appropriations Received                                                8,117,973                  7,941,932
      Appropriations Transferred-In/Out                                        (60,821)                   (61,176)
      Other Adjustments                                                              -                    (15,884)
      Appropriations Used                                                   (8,100,309)                (7,925,566)

     Total Budgetary Financing Sources                                        (43,157)                  (60,694)

     Unexpended Appropriations                                      $      2,151,355              $   2,194,512

   Cumulative Results of Operations
    Beginning Balances                                              $      2,760,450              $   2,413,112

     Budgetary Financing Sources
      Appropriations Used                                                    8,100,309                  7,925,566

     Other Financing Sources
      Transfers-In/Out Without Reimbursement                                      5,333                   74,270
      Imputed Financing from Costs Absorbed
        by Others (Note 17)                                                    276,722                   305,129
      Other Financing Sources                                                   (5,199)                   (4,613)

     Total Financing Sources                                               8,377,165                  8,300,352

     Net Cost of Operations                                               (8,070,134)                 (7,953,014)

     Net Change                                                                307,031                   347,338

     Cumulative Results of Operations                               $      3,067,481              $   2,760,450

   Net Position                                                     $      5,218,836              $   4,954,962




Federal Bureau of Investigation                      - 39 -
                     The accompanying notes are an integral part of these financial statements.
                                                    U.S. Department of Justice

                                                  Federal Bureau of Investigation

                                          Combined Statements of Budgetary Resources

                                     For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                    2012             2011

Budgetary Resources:

   Unobligated Balance, Brought Forward, October 1                                       $        947,534      $       946,877

   Recoveries of Prior Year Unpaid Obligations                                                    290,427              216,564
   Other Changes in Unobligated Balance                                                           (53,259)             (58,985)
   Unobligated Balance from Prior Year Budget Authority, Net                                    1,184,702            1,104,456
   Appropriations (discretionary and mandatory)                                                 8,110,411            7,923,857
   Spending Authority from Offsetting Collections (discretionary and mandatory)                 1,395,880            1,321,494
Total Budgetary Resources                                                                $   10,690,993        $   10,349,807

Status of Budgetary Resources:
   Obligations Incurred (Note 18)                                                               9,591,524            9,402,273
   Unobligated Balance, End of Period:
       Apportioned                                                                                624,435              594,313
       Unapportioned                                                                              475,034              353,221
   Total Unobligated Balance - End of Period                                                    1,099,469              947,534
Total Status of Budgetary Resources                                                      $   10,690,993        $   10,349,807

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations, Gross                                                         $      3,165,268      $     3,221,811
       Less: Uncollected Customer Payments from Federal Sources                                   492,704              479,261
           Total Obligated Balance, Net - Brought Forward, October 1                            2,672,564            2,742,550
   Obligations Incurred                                                                         9,591,524            9,402,273
   Less: Outlays, Gross                                                                         9,394,120            9,242,252
   Change in Uncollected Customer Payments from Federal Sources                                   (75,764)             (13,443)
   Less: Recoveries of Prior Year Unpaid Obligations                                              290,427              216,564

   Obligated Balance, Net - End of Period
       Unpaid Obligations, Gross                                                                3,072,245            3,165,268
       Less: Uncollected Customer Payments from Federal Sources                                   568,468              492,704
   Total Obligated Balance, Net - End of Period                                          $     2,503,777       $    2,672,564

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                                     9,506,291            9,245,351
   Less: Actual Offsetting Collections (discretionary and mandatory)                            1,320,116            1,308,051
   Change in Uncollected Customer Payments from Federal Sources
      (discretionary and mandatory)                                                               (75,764)             (13,443)
   Budgetary Authority, Net (discretionary and mandatory)                                $     8,110,411       $    7,923,857

   Outlays, Gross (discretionary and mandatory)                                          $      9,394,120      $     9,242,252
   Less: Actual Offsetting Collections (discretionary and mandatory)                            1,320,116            1,308,051
   Outlays, Net (discretionary and mandatory)                                                   8,074,004            7,934,201
   Less: Distributed Offsetting Receipts                                                              145               (7,284)
   Agency Outlays, Net (discretionary and mandatory)                                     $     8,073,859       $    7,941,485




Federal Bureau of Investigation                             - 40 -
                           The accompanying notes are an integral part of these financial statements.
               Notes to the Financial Statements


                                U.S. DEPARTMENT OF JUSTICE

                             FEDERAL BUREAU OF INVESTIGATION

                            NOTES TO THE FINANCIAL STATEMENTS

                          (DOLLARS IN THOUSANDS, EXCEPT AS NOTED)


1.     Summary of Significant Accounting Policies

       A. Reporting Entity
       The Federal Bureau of Investigation (“FBI” or “Bureau”), established in 1908, is an integral part
       of the Department of Justice (DOJ or the Department). The mission of the FBI is to protect and
       defend the United States (U.S.) against terrorist and foreign intelligence threats, to uphold and
       enforce the criminal laws of the U.S., and to provide leadership and criminal justice services to
       federal, state, local, and international agencies and partners. The Bureau also provides assistance
       to other federal, state, and local law enforcement agencies and the public at large. Assistance
       includes forensic services, training law enforcement officials, background investigations, name
       checks, fingerprint analyses, and cooperative criminal investigations.
       The accompanying financial statements of the FBI include the following funds under the
       administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year
       Salaries and Expense (S&E) funds; appropriated no-year Construction (CNST) funds; and no-
       year Violent Crime Reduction Program (VCRP) trust funds. These funds include new
       appropriations, transfers of appropriations from other federal agencies, and the carry-over of prior
       years’ unobligated balances for multi-year and no-year appropriated funds. The FBI also receives
       reimbursable funding from other agencies for services rendered.

       B. Basis of Presentation
       These financial statements have been prepared from the books and records of the FBI in
       accordance with U.S. generally accepted accounting principles issued by the Federal Accounting
       Standards Advisory Board and presentation guidelines in the Office of Management and Budget
       (OMB) Circular A-136, Financial Reporting Requirements. These financial statements are
       different from the financial reports prepared pursuant to OMB directives used to monitor and
       control the use of the FBI’s budgetary resources. To ensure that the FBI financial statements are
       meaningful at the entity level and to enhance reporting consistency within the Department, Other
       Assets and Other Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. Other Assets include Advances and Prepayments, and Other Liabilities include
       Accrued Federal Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits,
       Accrued Annual and Compensatory Leave Liabilities, Seized Cash and Monetary Instruments,
       and Contingent Liabilities.

       C. Basis of Consolidation
       The consolidated/combined financial statements include the accounts of the FBI. All significant
       proprietary intra-entity transactions and balances have been eliminated in consolidation. The
       Statements of Budgetary Resources are combined statements for Fiscal Years (FYs) 2012 and
       2011, and as such, intra-entity transactions have not been eliminated. The consolidated financial
       statements do not include centrally administered assets and liabilities of the federal government
       as a whole, such as General Services Administration (GSA) owned property and equipment, and


Federal Bureau of Investigation                       - 41 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       borrowings from the public by the U.S. Department of the Treasury (Treasury), which may in part
       be attributed to the FBI.

       D. Basis of Accounting
       Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
       basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
       when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
       based upon legal considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial statements.

       E. Non-Entity Assets
       Non-entity assets represent assets temporarily controlled and administered by the FBI, but not
       available to the FBI as a financing source for operations. The FBI withholds state and local
       income taxes from taxable travel and transfer related expenses from FBI employees for
       subsequent disbursement to the applicable taxing authorities. Undisbursed withholdings at fiscal
       year-end are recorded as non-entity assets on the balance sheet with an offsetting liability. Cash
       temporarily held by the FBI as evidence for legal proceedings is also included on the balance
       sheet as a non-entity asset with an offsetting liability.

       F. Fund Balance with U.S. Treasury and Cash
       Fund balances with the Treasury primarily represent appropriated, revolving, and trust funds
       available to pay current liabilities and finance future authorized purchases of goods and services.
       Receipts are processed by commercial banks for deposit to individual accounts maintained at the
       Treasury. Treasury and other Treasury-designated disbursing officers process cash receipts and
       disbursements as directed by authorized FBI certifying officers. The FBI field offices and legal
       attachés maintain imprest and emergency funds to accommodate law enforcement cash
       requirements occurring outside normal banking system operating hours.

       G. Accounts Receivable
       Accounts receivable are established for amounts due to overpayments and for reimbursable
       expenses incurred by the FBI in providing goods and services ordered by other entities.
       Intragovernmental accounts receivable represent amounts due from federal entities and agencies.
       Other receivables represent amounts due from state and local governments, individuals, and other
       non-federal entities.
       The Allowance for Uncollectible Accounts calculation methodology is a percentage based on
       outstanding receivables weighted against the collections rate of those receivables. An analytical
       review is conducted annually to update the percentage applied to outstanding receivables. An
       invoice is deemed delinquent if it is unpaid after 30 days. Intragovernmental receivables are
       considered fully collectible.




Federal Bureau of Investigation                      - 42 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       H. Inventory and Related Property
       Operating materials and supplies consist of fuel, ammunition, spare aircraft parts, and office
       supplies. Operating materials and supplies are valued at acquisition cost. Supplies and materials
       are for entity use only, and are not for sale.

       I. General Property, Plant, and Equipment
       Property, plant, and equipment are stated at cost, less accumulated depreciation. The FBI
       capitalizes property, plant, and equipment with an acquisition cost (or individual asset recognition
       value) greater than $25 and a useful life greater than or equal to two years. Beginning in FY 2012,
       the FBI raised the Aircraft capitalization threshold to greater than $100. Expenditures for
       property and equipment with an acquisition cost (or individual asset recognition value) less than
       the applicable threshold are charged to operating expenses as incurred. The FBI calculates a
       salvage value of 10 percent or less for capitalized property.
       Since October 1, 2000, the FBI has capitalized internal use software and bulk purchases of
       Commercial Off-the-Shelf (COTS) software with an acquisition cost exceeding $500 and a useful
       life exceeding two years. Internal use software and bulk-purchases of COTS software not
       meeting this capitalization threshold or useful life timeframe are expensed.
       During FY 2002, the FBI implemented revised DOJ policy regarding FBI-funded improvements
       to facilities leased by, or for, the FBI. The revised DOJ policy requires capitalization of
       improvements exceeding $100 that expand the capacity of a facility, or otherwise upgrade it to
       serve a function different from, or significantly greater than, that originally intended.
       The FBI uses work-in-progress (WIP) accounts to capitalize expenditures associated with on­
       going leasehold improvements projects, the on-going construction of facilities and equipment,
       and the development of internal use software that meet FBI’s capitalization thresholds. Upon
       completion of the project(s), the applicable costs are transferred from WIP to a depreciable asset.
       Depreciation of capitalized assets (other than land and WIP accounts) is computed on a straight-
       line basis over the estimated useful economic life of the respective asset.
       While the FBI does own some land, buildings, and other structures, it leases its headquarters
       building, field office buildings, and warehouse space from the GSA. The FBI also leases office
       space from non-governmental entities, both in the U.S. and abroad.

       J. Advances and Prepayments
       Advances and prepayments classified as assets include funds disbursed to finance operations that
       exceed the total expenditures incurred. This amount also includes advances of funds to federal
       employees for official travel, and the balance of travel advances in excess of travel expenses
       claimed on reimbursement vouchers. When authorized by procurement regulations, payments
       made in advance of the FBI’s receipt of goods and services are recorded as prepaid charges at the
       time of prepayment and recognized as expenditures/expense when the related goods and services
       are received. Advances and prepayments involving other federal agencies are classified as Other
       Assets on the balance sheet.




Federal Bureau of Investigation                      - 43 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       K. Seized Property
       All property seized for forfeiture, including property with evidentiary value, is reported by the
       DOJ Assets Forfeiture Fund and Seized Asset Deposit Fund. The FBI has an established
       reporting threshold of $1 or more for Personal Property seized for evidentiary purposes. The FBI
       reports each seized personal property evidence record as a single unit of measure.
       Cash in the custody of the FBI for evidentiary purposes is recognized as an asset on the balance
       sheet with an offsetting liability. Non-monetary valuable property held as evidence is disclosed
       in Note 7 at the appraised or fair market value at the time of the seizure and is not adjusted to any
       subsequent increases and decreases in estimated fair market value. It is not recognized as an asset
       on the balance sheet.
       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 7 in accordance
       with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for
       Inventory and Related Property, and Federal Financial Accounting and Auditing Technical
       Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Reported quantities of
       drugs include only substances over one kilogram (KG) that are laboratory-analyzed and
       confirmed.

       L. Liabilities
       Liabilities represent the amount of monies or other resources likely to be paid by the FBI as the
       result of a transaction or an event that has already occurred. However, absent proper budget
       authority, the FBI cannot pay a liability. Liabilities for which an appropriation has not been
       enacted are considered unfunded liabilities. As a result, there is no certainty that corresponding
       future appropriations will be enacted to liquidate these unfunded liabilities.

       M. Contingencies and Commitments
       The FBI is party to various administrative proceedings, legal actions, and claims. The balance
       sheet includes an estimated liability for those legal actions where management and the Chief
       Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
       actions where management and the Chief Counsel consider adverse decisions “probable” or
       “reasonably possible” and the amounts are reasonably estimable are disclosed in Note 15,
       Contingencies and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated or the
       likelihood of an unfavorable outcome is considered “remote.”

       N. Annual, Sick, and Other Leave
       Annual leave and compensatory leave are expensed as earned with an offsetting liability.
       Liabilities are reduced as leave is taken. At the end of each fiscal quarter, the balance in the
       accrued annual leave liability account is adjusted to reflect valuation at current pay rates. To the
       extent current-year or prior-year appropriations are not available to fund annual and
       compensatory leave that is earned but not taken, funding will be obtained from future financing
       sources. Sick leave and other types of non-vested leave are expensed as taken.




Federal Bureau of Investigation                      - 44 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       O. Interest on Late Payments
       Pursuant to the Prompt Payment Act of 1999 (31 U.S.C. 3901-3907), the FBI pays interest to
       commercial concerns for payments made after the payment due date. The payment due date is
       generally 30 days after the receipt of a valid invoice by the designated activity, or 30 days after
       the receipt and acceptance of the goods or services, whichever is later. Interest is computed on
       the principal amount due at the rate of interest established by the Secretary of the Treasury, and
       published in the Federal Register, for interest payments under section 12 of the Contract Disputes
       Act of 1978 (41 U.S.C. 611). Interest is paid for the period beginning one day after the principal
       payment due date and ending on the date on which the principal payment is made.

       P. Retirement Plans
       With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
       Retirement System (CSRS), and employees hired on or after that date are covered by the Federal
       Employees Retirement System (FERS).
       The accompanying financial statements report expenses incurred by the FBI for required
       contributions made to retirement accounts administered by the Office of Personnel Management
       (OPM). For employees covered by the CSRS, the FBI contributes 7.0 percent of the support
       employees’ gross pay for normal retirement and for agents 7.5 percent. For employees covered
       by the FERS, the FBI contributes 11.9 percent of the support employees’ gross pay and for agents
       26.3 percent. All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP).
       For employees covered by the FERS, the FBI automatically contributes 1.0 percent of gross pay
       and matches employee contributions up to 4.0 percent of gross pay. The FBI is not authorized to
       make automatic or matching contributions to the TSP for employees covered by the CSRS. The
       FBI’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or any
       related unfunded liabilities, which may be applicable to its employees. Such reporting is the
       responsibility of OPM.
       The FBI recognizes an additional expense and an offsetting imputed financing source for FBI
       Pension and Other Retirement Benefits Expense not covered by employee and FBI contributions;
       this expense is ultimately paid by OPM.

       Q. Federal Employee Compensation Benefits
       The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
       to covered federal civilian employees injured on the job, employees who have incurred a work-
       related occupational disease, and beneficiaries of any employee whose death is attributable to a
       job-related injury or occupational disease. Claims incurred for benefits for FBI employees under
       FECA are administered by the Department of Labor (DOL) and are ultimately paid by the FBI.
       The total FECA liability has two components: (1) unpaid billings and (2) an amount of estimated
       unbilled claims. Unpaid billings represent claims already paid by the DOL, which have not yet
       been reimbursed by the FBI. There is generally a two-year delay in the processing of the DOL
       payments through DOJ to the FBI. The FBI reports the unpaid billings as Accrued FECA
       Liabilities.




Federal Bureau of Investigation                       - 45 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       Unbilled claims are estimated by the DOL by applying actuarial projections to incurred (both
       reported and unreported) claims. The DOL calculates the actuarial liability of the federal
       government for future compensation benefits, which includes the expected liability for death,
       disability, medical, and miscellaneous approved compensation costs. The liability is determined
       using the paid-losses extrapolation method calculated over the next 37-year period. This method
       uses historical benefit payment patterns related to a specific incurred period to predict the
       ultimate payments related to that period. The projected annual benefit payments were discounted
       to present value. The resulting federal government liability is then distributed by the DOL to the
       respective departments.
       DOJ calculates and distributes each bureau’s respective portion of the total DOJ actuarial liability
       that is recorded for reporting purposes only. The Actuarial FECA Liability constitutes an
       extended estimate of future costs that will be obligated against budgetary resources the fiscal year
       in which the cost is actually paid to DOL by DOJ, and subsequently by the FBI.

       R. Intragovernmental Activity
       Intragovernmental cost and exchange revenue represent transactions made between two reporting
       entities within the federal government. Costs and exchange revenues with the public represent
       transactions made between the reporting entity and a non-federal entity. The classification of
       revenue or cost as “intragovernmental” or “with the public” is defined on a transaction-by­
       transaction basis. The purpose of this classification is to enable the federal government to prepare
       consolidated financial statements, not to match public and intragovernmental revenue with the
       costs incurred to produce public and intragovernmental revenue.

       S. Revenues and Other Financing Sources
       The FBI receives funding to support its programs and execute its assigned mission from three
       primary sources: (1) annual, no-year, and multi-year appropriations by the U.S. Congress; (2)
       appropriated funds transferred to the FBI; and (3) reimbursable program funding. Appropriated
       funds (appropriated to the FBI or appropriated to other federal entities and transferred to the FBI
       for execution) represent the majority of the FBI’s operating budget.
       A source of revenue to the FBI are fees authorized by law for providing fingerprint-based and
       name-based Criminal History Record Information checks and other identification services
       submitted by authorized users for noncriminal justice purposes, including employment and
       licensing. The fee is based on full-cost recovery, and is determined using an activity-based cost
       model. By law, the FBI may set such fees at a level to include an additional amount to establish a
       fund to defray expenses for the automation of fingerprint identification and criminal justice
       information services and associated costs. Fee schedules are announced in the Federal Register
       following a public comment period. The FBI is not authorized to charge fees for fingerprint
       identification and criminal justice information services for law enforcement purposes.




Federal Bureau of Investigation                      - 46 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       Other financing sources to the FBI include assets transferred to the FBI without reimbursement
       and imputed financing for: (1) FBI pension and other benefits expenses not covered by employee
       and FBI contributions and which are ultimately paid by OPM; and (2) expenses for legal claims
       paid out of the Treasury Judgment Fund on behalf of the FBI.
       Appropriations are recognized as financing sources when the goods and services authorized to be
       paid from the appropriations have been received and accepted, or when program or administrative
       expenses have been incurred. Revenue from reimbursable activities is recognized when it is
       earned, i.e. when the goods or services ordered have been delivered or rendered to the ordering
       entity. The FBI also earns revenue from the sale of assets, principally vehicles.

       T. Earmarked Funds
       SFFAS No. 27, Identifying and Reporting Earmarked Funds, defines “earmarked funds” as being
       financed by specifically identified revenues, often supplemented by other financing sources,
       which remain available over time. These specifically identified revenues and other financing
       sources are required by statute to be used for designated activities, benefits, or purposes, and must
       be accounted for separately from the government’s general revenues. The three required criteria
       for an earmarked fund are:
           1.	 A statute committing the federal government to use specifically identified resources and
               other financing sources only for designated activities, benefits, or purposes;
           2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
               not used in the current period for future use to finance the designated activities, benefits,
               or purposes; and
           3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
               and other financing sources that distinguishes the earmarked fund from the government’s
               general revenues.
       There are no funds that meet the definition of an earmarked fund.

       U. Tax Exempt Status
       As an agency of the federal government, the FBI is exempt from all income taxes imposed by any
       governing body whether it is a federal, state, commonwealth, local, or foreign government.

       V. Use of Estimates
       The preparation of financial statements requires management to make estimates and assumptions
       that affect the reported amounts of assets and liabilities and the reported amounts of revenue and
       expenses during the reporting period. Actual results could differ from those estimates.

       W. Reclassifications
       The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental
       financial statement presentation requirements. The FBI has realigned its Statement of Net Cost
       and Note 16, Net Cost of Operations by Suborganization to further align to the revised goal
       structure in accordance with the Department’s Strategic Plan. Also, changes to the presentation
       of the Combined and Combining Statements of Budgetary Resources were made, in accordance


Federal Bureau of Investigation                        - 47 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


1.      Summary of Significant Accounting Policies (continued)
        with guidance provided in OMB Circular A-136, Financial Reporting Requirements, and as such,
        activity and balances reported on the FY 2011 Combined and Combining Statement of Budgetary
        Resources have been reclassified to conform to the presentation in the current year. Certain other
        prior year amounts have been reclassified to conform with the current year presentation. The
        reclassifications had no material effect on total assets, liabilities, net position, change in net
        position or budgetary resources as previously reported.

        X. Subsequent Events
        Subsequent events and transactions occurring after September 30, 2012 through the date of the
        auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
        statements. The date of the auditors’ opinion also represents the date that the financial statements
        were available to be issued.


2.      Non-Entity Assets
Non-entity assets are assets that are held by the FBI but are not available for its use.


           As of September 30, 2012 and 2011
                                                                           2012                   2011
           Intragovernmental
             Fund Balance with U.S. Treasury                         $            576         $          429

           With the Public
            Cash and Monetary Assets                                          48,302                 46,005
              Total Non-Entity Assets                                         48,878                 46,434
              Total Entity Assets                                          6,687,374              6,478,146
              Total Assets                                           $     6,736,252          $   6,524,580




Federal Bureau of Investigation                        - 48 -
                              These notes are an integral part of the financial statements.
                Notes to the Financial Statements


3.      Fund Balance with U.S. Treasury


          As of September 30, 2012 and 2011
                                                                             2012                2011
          Fund Balances
            Trust Fund                                                 $             -       $           4
            General Funds                                                    3,600,789           3,618,025
            Other Fund Types                                                       576                 429
              Total Fund Balances with U.S. Treasury                   $     3,601,365       $   3,618,458

          Status of Fund Balances
            Unobligated Balance - Available                            $       624,435       $     594,313
            Unobligated Balance - Unavailable                                  475,034             353,221
            Obligated Balance not yet Disbursed                              2,503,777           2,672,564
            Other Funds (With)/Without Budgetary Resources                      (1,881)             (1,640)
              Total Status of Fund Balances                            $     3,601,365       $   3,618,458


The Trust Fund amount in FY 2011 included the remaining funds resulting from VCRP which was
established by the Violent Crime and Law Enforcement Act of 1994. The General Funds amount
includes the remaining funds resulting from budget authority to pay valid obligations. Other Fund Types
amount includes deposit, clearing, and suspense accounts temporarily held with Treasury until such time
they are required for use.
Unobligated Balance-Available includes current year apportionments that may be used for new
obligations. Unobligated Balance-Unavailable includes amounts appropriated in prior fiscal years that are
no longer available to fund new obligations, but can be used for upward and/or downward adjustments for
existing obligations. Additionally, this line includes amounts received that are restricted to future use and
as a result are not apportioned for current use. Obligated Balance not yet Disbursed includes obligations
of appropriated funds and obligations related to reimbursable activity. Other Funds (With)/Without
Budgetary Resources includes deposit, clearing, and suspense accounts.




Federal Bureau of Investigation                       - 49 -
                             These notes are an integral part of the financial statements.
                Notes to the Financial Statements


4.      Cash and Monetary Assets


           As of September 30, 2012 and 2011
                                                                      2012                      2011
           Cash
            Undeposited Collections                             $         16,370            $      2,765
            Imprest Funds                                                  2,461                   2,071
            Other Cash                                                     3,042                   3,127
              Total Cash                                                  21,873                   7,963



           Monetary Assets
            Seized Monetary Instruments                                   45,262                  42,880
              Total Cash and Monetary Assets                    $         67,135            $     50,843


Undeposited Collections includes various in-transit accounts where account activities have been
processed in the FBI’s Financial Management System, but not deposited in the bank and reported to
Treasury via the Classification Transaction and Accountability Report (formerly SF-224) monthly
submission. The Undeposited Collections balance represents timing differences in the recording of
transactions between the FBI and Treasury.
Imprest Funds reflects monies dedicated for operational support, such as petty cash and emergency funds.
Other Cash consists of project generated proceeds.
Seized Monetary Instruments represents cash evidence obtained during FBI investigations held pending
release to the rightful owners.




Federal Bureau of Investigation                      - 50 -
                            These notes are an integral part of the financial statements.
                Notes to the Financial Statements


5.      Accounts Receivable, Net


           As of September 30, 2012 and 2011
                                                                       2012                          2011
           Intragovernmental
             Accounts Receivable                                $         143,146            $        181,271

           With the Public
            Accounts Receivable                                            28,343                      33,719
            Allowance for Uncollectible Accounts                           (1,274)                     (1,350)
              Total With the Public                                        27,069                      32,369
              Total Accounts Receivable, Net                    $         170,215            $        213,640


Intragovernmental receivables are based on services provided to other federal agencies for activities such
as name checks, requests for international travel, and training. The significant types of receivables
reported in With the Public include the Non-Federal User Fee Program and the National Name Check
Program. These customers are typically state and local government agencies conducting background
checks on individuals working in a field other than law enforcement.


6.      Inventory and Related Property, Net


          As of September 30, 2012 and 2011
                                                                            2012                      2011
          Operating Materials and Supplies
           Held for Current Use                                       $          7,310           $          8,103




7.      Seized Property
Analysis of Change in Seized Property:
Seized Monetary Instruments (see also Notes 4 and 13) includes cash held by the FBI as evidence for
legal proceedings, and is reported on the balance sheet as an asset, with an offsetting liability. Non-
monetary evidence includes art, jewelry, and other valuables (see Note 1.K). According to DOJ
guidelines, evidence items subject to forfeiture are not disclosed by the seizing agency.
The item counts and financial value of non-monetary valuable property in the custody of the FBI as of
September 30, 2012 and September 30, 2011, excluding forfeited property for evidentiary purposes, and
activity during each fiscal year are summarized in the following charts in accordance with SFFAS No. 3,
Accounting for Inventory and Related Property.



Federal Bureau of Investigation                       - 51 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


7.      Seized Property (continued)
Drug evidence is presented in accordance with Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Analyzed drug evidence
represents actual laboratory-tested classification and weight in KG. Since enforcement of the controlled
substances laws and regulations of the U.S. is incidental to the mission of the FBI, only individual
seizures exceeding one KG in weight are reported.
“Other” primarily consists of substances, both controlled and non-controlled as defined per the Controlled
Substances Act, other than cocaine, heroin, marijuana, or methamphetamine. The actual drug weight may
vary from seizure weight due to changes in moisture content over time.
Unanalyzed drug evidence is not reported by the FBI because it is neither weighed nor confirmed by
laboratory chemists. Seized drug evidence must be analyzed and confirmed through laboratory testing to
be placed in one of the five categories of drugs above. “Disposals” occur when evidence is either
returned to the owner or destroyed in accordance with federal guidelines.

         For the Fiscal Year Ended September 30, 2012

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       42,880 $        (2,180) $       28,200 $       (23,638) $        45,262

           Personal Property      Number             1,342             45              310            (338)           1,359
                                  Value  $          35,931 $         (308) $         9,545 $       (15,436) $        29,732

           Non-Valued
            Firearms              Number            29,383          (1,101)          3,809          (2,386)          29,705
            Drug Evidence
               Cocaine            KG                 6,144           (241)             605            (278)           6,230
               Heroin             KG                   418              -               16              (9)             425
               Marijuana          KG                 3,689           (127)              69             (75)           3,556
               Methamphetamine    KG                   546            (11)             163             (21)             677
               Other              KG                 1,080            (72)              21             (31)             998
           Total Drug Evidence                      11,877           (451)             874            (414)          11,886




Federal Bureau of Investigation                               - 52 -
                                  These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


7.      Seized Property (continued)

         For the Fiscal Year Ended September 30, 2011

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       42,120 $        (4,910) $       38,423 $       (32,753) $        42,880

           Personal Property      Number             1,385               4             404            (451)           1,342
                                  Value  $          24,692 $         9,632 $        13,886 $       (12,279) $        35,931

           Non-Valued
            Firearms              Number            27,564            261            3,401          (1,843)          29,383
            Drug Evidence
               Cocaine            KG                 6,361           (356)             577            (438)           6,144
               Heroin             KG                   428            (19)              28             (19)             418
               Marijuana          KG                 3,990           (111)             104            (294)           3,689
               Methamphetamine    KG                   481              1               84             (20)             546
               Other              KG                 1,233           (182)             140            (111)           1,080
           Total Drug Evidence                      12,493           (667)             933            (882)          11,877


**Adjustments include property status and valuation changes received after, but properly credited to,
prior fiscal years. Valuation changes include updates and corrections to an asset’s value recorded in a
prior year.


Method of Disposition of Seized Property:
During FYs 2012 and 2011, $14,387 and $10,416 were returned to parties with a bonafide interest, and
$24,687 and $34,616 were either released to a designated party or transferred to the appropriate federal
entity under forfeiture or abandonment proceedings. Non-valued property was primarily disposed of
through destruction.




Federal Bureau of Investigation                               - 53 -
                                  These notes are an integral part of the financial statements.
                    Notes to the Financial Statements


8.        General Property, Plant and Equipment, Net

     As of September 30, 2012
                                                     Acquisition        Accumulated            Net Book         Useful
                                                       Cost              Depreciation           Value            Life
     Land and Land Rights                          $        8,901       $            -       $       8,901       N/A
     Construction in Progress                            385,171                     -             385,171       N/A
     Buildings, Improvements, and Renovations            582,810             (270,689)             312,121   10-50 years
     Other Structures and Facilities                      36,760              (11,130)              25,630   10-50 years
     Aircraft                                            261,055              (63,705)             197,350    5-30 years
     Boats                                                10,155               (5,602)               4,553    5-25 years
     Vehicles                                            266,169             (173,938)              92,231    2-25 years
     Equipment                                           948,547             (524,688)             423,859    2-25 years
     Leasehold Improvements                              477,424             (165,672)             311,752    3-10 years
     Internal Use Software                               953,869             (244,992)             708,877    3-10 years
     Internal Use Software in Development                340,806                     -             340,806       N/A
     Total                                         $ 4,271,667          $ (1,460,416)        $ 2,811,251


During FY 2012, the FBI purchased $123,890 in capital property from federal sources and $439,936 from
the public.

     As of September 30, 2011
                                                     Acquisition        Accumulated            Net Book         Useful
                                                       Cost              Depreciation           Value            Life
     Land and Land Rights                          $      12,590        $            -       $      12,590       N/A
     Construction in Progress                            312,699                     -             312,699       N/A
     Buildings, Improvements, and Renovations            567,734             (256,565)             311,169   10-50 years
     Other Structures and Facilities                      35,088               (9,622)              25,466   10-50 years
     Aircraft                                            248,256              (50,214)             198,042    5-30 years
     Boats                                                  7,813              (4,661)               3,152    5-25 years
     Vehicles                                            243,191             (155,673)              87,518    2-25 years
     Equipment                                           916,763             (500,456)             416,307    2-25 years
     Leasehold Improvements                              398,010             (118,939)             279,071    3-10 years
     Internal Use Software                               530,413             (147,893)             382,520    3-10 years
     Internal Use Software in Development                529,991                     -             529,991       N/A
     Total                                         $ 3,802,548          $ (1,244,023)        $ 2,558,525


During FY 2011, the FBI purchased $104,894 in capital property from federal sources and $454,953 from
the public.




Federal Bureau of Investigation                             - 54 -
                                   These notes are an integral part of the financial statements.
                Notes to the Financial Statements


9.      Other Assets


           As of September 30, 2012 and 2011
                                                                     2012                         2011
           Intragovernmental
             Advances and Prepayments                          $          30,187              $       27,867




10.     Liabilities not Covered by Budgetary Resources

          As of September 30, 2012 and 2011
                                                                                2012                  2011
          Intragovernmental
            Accrued FECA Liabilities                                       $        31,101        $      30,829
            Other Unfunded Employment Related Liabilities                              278                  288
              Total Intragovernmental                                               31,379               31,117

          With the Public
           Actuarial FECA Liabilities                                             176,422               182,426
           Accrued Annual and Compensatory Leave Liabilities                      277,074               270,528
           Environmental and Disposal Liabilities (Note 11)                        10,219                 9,987
           Contingent Liabilities (Note 15)                                        11,788                52,335
             Total With the Public                                                475,503               515,276
             Total Liabilities not Covered by Budgetary Resources                 506,882               546,393
             Total Liabilities Covered by Budgetary Resources                   1,010,534             1,023,225
             Total Liabilities                                             $    1,517,416         $   1,569,618


Liabilities not Covered by Budgetary Resources reports the receipt of goods and services, or eligible
events in the current or prior periods, for which funds to pay the liabilities have not been made available
through appropriations to the FBI.


11.     Environmental and Disposal Liabilities
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6,
Accounting for Property, Plant, and Equipment, and Federal Financial Accounting and Auditing
Technical Release No. 2, Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government, federal agencies are required to recognize liabilities for environmental
cleanup costs when the future outflow or sacrifice of resources is probable and reasonably estimable.




Federal Bureau of Investigation                        - 55 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


11.     Environmental and Disposal Liabilities (continued)
As environmental-related cleanup costs are paid, the liabilities are reduced. Additionally, estimates will
be revised periodically to account for material changes due to inflation, technology, and applicable laws
and regulations. Any material changes in the estimated total cleanup costs will be expensed when
estimates are revised and the liability balance adjusted.
Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to develop
and enforce regulations to protect the general public from exposure to airborne contaminants known to be
hazardous to human health. On March 31, 1971, the EPA identified asbestos as a hazardous pollutant,
and on April 6, 1973, the EPA first promulgated the Asbestos National Emissions Standards for
Hazardous Air Pollutants.
The FBI exercises due care in determining the presence of contamination in adherence to the law, rules
and regulations and policies by the Clean Air Act. The Facilities and Logistics Service Division,
responsible for managing and maintaining FBI and non-FBI owned facilities, has identified FBI-owned
facilities in Quantico that contain hazardous friable and non-friable asbestos. The facilities have a useful
life of 50 years. The estimated total liability of $11,613 is based on the square footage of the facilities
that may be contaminated. This value, divided by the useful life and multiplied by the number of years in
service, is the estimated cleanup liability. As of September 30, 2012 and 2011, the FBI reported the
estimated cleanup liability of $10,219 and $9,987, respectively. The estimated asbestos cleanup liability
is increased each quarter by recording future funded expenses for the asbestos cleanup costs. During
FY 2012, future funded expense for asbestos cleanup is $232. There are no other potentially responsible
parties to the environmental liability and there are no unrecognized amounts to disclose as of
September 30, 2012.


12.     Leases
The majority of space occupied by the FBI is leased from the GSA. The rental cost is based on the area
occupied at the commercial rate per square foot, negotiated by the GSA along with appropriate GSA fees.
The majority of the leases are cancelable; however, if tenant improvement (TI) costs are amortized in the
lease and the FBI terminates prior to the end of the amortized period, the FBI will be responsible for the
unpaid TI costs.
Typically, the minimum lease term for a Resident Agency (RA) is 5 years and the maximum is 15 years.
The minimum lease term for a field office is 15 years and the maximum is 20 years.
The FBI has a long-range program to relocate all field offices into single tenant, stand-alone, secure
facilities. All new leases for field offices and some RAs will be noncancelable.
The FBI currently anticipates relocating 15 field offices between FY 2013 and FY 2017. When field
offices relocate, often from space leased for 20 years or longer, the rental rates increase significantly to
accommodate the FBI's growth in workforce, space needs, and specialized security requirements.




Federal Bureau of Investigation                        - 56 -
                              These notes are an integral part of the financial statements.
               Notes to the Financial Statements


12.    Leases (continued)

         As of September 30, 2012

         Future Noncancelable Operating Lease Payments Due

                                                      Land and            Machinery and
         Fiscal Year                                  Buildings             Equipment            Total
           2013                                     $     191,569         $       8,910      $     200,479
           2014                                           209,799                 4,320            214,119
           2015                                           223,218                 4,320            227,538
           2016                                           227,623                     -            227,623
           2017                                           226,610                     -            226,610
           After 2017                                   2,372,060                     -          2,372,060
            Total Future Noncancelable Operating
              Lease Payments                     $        3,450,879        $       17,550    $   3,468,429




13.    Seized Cash and Monetary Instruments
Seized Cash and Monetary Instruments represents liabilities for seized assets held by the FBI pending
disposition. The Seized Cash and Monetary Instruments as of September 30, 2012 and 2011 are $45,262
and $42,880, respectively.




Federal Bureau of Investigation                       - 57 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


14.	    Other Liabilities
All Other Liabilities are current and presented in the following table:

          As of September 30, 2012 and 2011
                                                                                    2012                 2011
          Intragovernmental
            Employer Contributions and Payroll Taxes Payable                   $       66,432        $     62,866
            Other Post-Employment Benefits Due and Payable                                294                 594
            Other Unfunded Employment Related Liabilities                                 278                 288
            Advances from Others                                                       32,916              57,468
            Liability for Non-Entity Assets Not Reported
              on the Statement of Custodial Activity                                       76                   2
              Total Intragovernmental                                                  99,996             121,218

          With the Public
           Advances from Others                                                         2,818               1,155
           Liability for Clearing Accounts                                                482                 405
           Other Liabilities                                                            3,042               3,127
             Total With the Public                                                      6,342               4,687
             Total Other Liabilities                                           $      106,338        $    125,905




15.	    Contingencies and Commitments


                                                   Accrued                     Estimated Range of Loss
                                                   Liabilities               Lower              Upper
           As of September 30, 2012
            Probable                           $         11,788         $          11,788       $	        18,083
            Reasonably Possible                                                    11,312                 16,667

           As of September 30, 2011
            Probable                           $         52,335         $          52,335       $        166,900
            Reasonably Possible                                                     9,910                 14,690




Federal Bureau of Investigation                          - 58 -
                                These notes are an integral part of the financial statements.
                        Notes to the Financial Statements


16.         Net Cost of Operations by Suborganization
In FY 2012, DOJ published an updated Strategic Plan under which the FBI now reports on all three DOJ
Strategic Goals (SGs or Goal). The methodology by which the FBI allocates gross costs and earned
revenue across the three SGs is consistent with the methodology used to allocate the FBI’s budget to the
three SGs in the FY 2013 Authorization and Budget Request to Congress. The tables below and on the
next page break out costs and revenue by these three SGs, as well as by FBI appropriation. These funds
include new appropriations, transfers of appropriations from other federal agencies, and the carry-over of
prior years’ unobligated balances for multi-year and no-year appropriated funds.

      For the Fiscal Year Ended September 30, 2012
                                                                                   Suborganizations
                                                               CNST                    VCRP                      S&E               Consolidated

      Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
       Gross Cost                                    $              74,345 $                      - $                5,267,525 $          5,341,870
       Less: Earned Revenue                                               -                       -                    460,839              460,839
       Net Cost of Operations                                       74,345                        -                  4,806,686            4,881,031

      Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
       Gross Cost                                                     6,721                     4                    2,957,550            2,964,275
       Less: Earned Revenue                                               -                     -                      340,061              340,061
       Net Cost of Operations                                         6,721                     4                    2,617,489            2,624,214

      Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
              State, Local, Tribal, and International Levels
       Gross Cost                                                        1,494                        -               1,049,289           1,050,783
       Less: Earned Revenue                                                  -                        -                 485,894             485,894
       Net Cost of Operations                                            1,494                        -                 563,395             564,889

      Net Cost of Operations                            $              82,560 $                       4 $            7,987,570 $          8,070,134




Federal Bureau of Investigation                                         - 59 -
                                           These notes are an integral part of the financial statements.
                        Notes to the Financial Statements


16.         Net Cost of Operations by Suborganization (continued)

      For the Fiscal Year Ended September 30, 2011
                                                                                   Suborganizations
                                                               CNST                    VCRP                      S&E               Consolidated

      Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
       Gross Cost                                    $              55,391 $                      - $                5,167,943 $          5,223,334
       Less: Earned Revenue                                               -                       -                    447,606              447,606
       Net Cost of Operations                                       55,391                        -                  4,720,337            4,775,728

      Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
       Gross Cost                                                   10,061                      -                    2,982,349            2,992,410
       Less: Earned Revenue                                               -                     -                      318,479              318,479
       Net Cost of Operations                                       10,061                      -                    2,663,870            2,673,931

      Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
              State, Local, Tribal, and International Levels
       Gross Cost                                                        8,668                        -               1,005,724           1,014,392
       Less: Earned Revenue                                                  -                        -                 511,037             511,037
       Net Cost of Operations                                            8,668                        -                 494,687             503,355

      Net Cost of Operations                            $              74,120 $                       -   $          7,878,894 $          7,953,014




17.         Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the FBI from a providing entity
that is not part of the DOJ. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the FBI are the actual cost of future benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees Group Life Insurance
Program (FEGLI), and the federal pension plans that are paid by other federal entities, and any
unreimbursed payments made from the Treasury Judgment Fund on behalf of the FBI. The Treasury
Judgment Fund was established by Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the
court judgments and settlement agreements negotiated by the Department on behalf of agencies, as well
as certain types of administrative awards. Interpretation of Federal Financial Accounting Standards No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and
expense when unfavorable litigation outcomes are probable and the amount can be estimated and will be
paid by the Treasury Judgment Fund.
SFFAS No. 5 requires that employing agencies recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits expected to be
paid in the future, and then determine the total funds to be contributed by and for covered employees,
such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 29.8 percent of basic pay for regular, 50.9 percent law
enforcement officers, 23.2 percent regular offset, and 45.2 percent law enforcement officers offset. For
employees covered by FERS, the cost factors are 13.7 percent of basic pay for regular and 29.7 percent
for law enforcement officers.

Federal Bureau of Investigation                                         - 60 -
                                           These notes are an integral part of the financial statements.
                Notes to the Financial Statements


17.     Imputed Financing from Costs Absorbed by Others (continued)
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid
by other federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, are the unreimbursed portion of the full costs of
goods and services received by the FBI from a providing entity that is part of the DOJ. Recognition is
required for those transactions determined to be material to the receiving entity. The determination of
whether the cost is material requires considerable judgment based on the specific facts and circumstances
of each type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and integral part
of the operations or output of the receiving entity. Costs are considered broad and general if they are
provided to many, if not all, reporting components and not specifically related to the receiving entity’s
output. The FBI does not have any imputed intra-departmental financing sources.


           For the Fiscal Years Ended September 30, 2012 and 2011
                                                                 2012                            2011

           Imputed Inter-Departmental Financing
             Treasury Judgment Fund                                  $         8,262         $     11,862
             Health Insurance                                                178,189              181,280
             Life Insurance                                                      685                  679
             Pension                                                          89,586              111,308
               Total Imputed Financing                               $       276,722         $    305,129




18.     Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:
The apportionment categories are determined in accordance with the guidance provided in Part 4, 

Instructions on Budget Execution, of OMB Circular A-11, Preparation, Submission and Execution of the

Budget. Category A represents resources apportioned for calendar quarters. Category B spending

includes funds appropriated for digital technology upgrades and construction funding for projects, such as:

the FBI’s Secure Work Environment Program, Biometrics Technology Center, Terrorist Explosive

Device Analytic Center, and the training facility at Quantico, Virginia. Category B also includes 

mortgage fraud investigations, operations along the U.S. southwest border, Department of State funding, 

and supplemental “bridged” funding including Overseas Contingency Operations, Render Safe mission,

and FBI Laboratory requirements. These are per OMB's guidance.





Federal Bureau of Investigation                       - 61 -
                             These notes are an integral part of the financial statements.
                  Notes to the Financial Statements


18.     Information Related to the Statement of Budgetary Resources (continued)

                                                                                        Reimbursable         Total Obligations
                                                              Direct Obligations         Obligations             Incurred
         For the Fiscal Year Ended September 30, 2012
           Obligations Apportioned Under:
             Category A                                        $      8,119,683     $        1,321,482       $      9,441,165
             Category B                                                 150,359                      -                150,359
           Total                                               $      8,270,042     $        1,321,482       $      9,591,524

         For the Fiscal Year Ended September 30, 2011
           Obligations Apportioned Under:
             Category A                                        $      7,807,714     $        1,300,384       $      9,108,098
             Category B                                                 294,175                      -                294,175
           Total                                               $      8,101,889     $        1,300,384       $      9,402,273


Status of Undelivered Orders:
Undelivered Orders (UDO) represents the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.

          As of September 30, 2012 and 2011
                                                                                   2012                          2011
          UDO Obligations Unpaid                                            $       2,156,076            $        2,258,248
          UDO Obligations Prepaid/Advanced                                             94,514                        74,140
           Total UDO                                                        $       2,250,590            $        2,332,388


Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation based on annual legislative requirements and other enabling authorities,
unless otherwise restricted. The use of unobligated balances is restricted based on annual legislation
requirements and other enabling authorities. Funds are appropriated on an annual, multi-year, and no-
year basis. Appropriated funds shall expire on the last day of availability and are no longer available for
new obligations. Unobligated balances in unexpired fund symbols are available in the next fiscal year for
new obligations unless some restrictions have been placed on those funds by law. Amounts in expired
fund symbols are not available for new obligations, but may be used to adjust previously established
obligations.




Federal Bureau of Investigation                             - 62 -
                                   These notes are an integral part of the financial statements.
                       Notes to the Financial Statements


18.        Information Related to the Statement of Budgetary Resources (continued)
Statement of Budgetary Resources vs. the Budget of the United States Government:
The Statement of Budgetary Resources versus the Budget of the U.S. Government as of September 30,
2011 is presented below.
The reconciliation as of September 30, 2012 is not presented because the submission of the Budget of the
United States Government (Budget) for FY 2014, which presents the execution of the FY 2012 Budget,
occurs after publication of these financial statements. The DOJ Budget Appendix can be found on the
OMB website (http://www.whitehouse.gov/omb/budget) and will be available in early February 2013.
Offsetting Receipts and Expired Funds are reported in the FBI’s Statement of Budgetary Resources, but
not reported in the Budget.

      For the Fiscal Year Ended September 30, 2011
        (Dollars in Millions)
                                                                                                         Distributed
                                                              Budgetary          Obligations             Offsetting
                                                              Resources           Incurred                Receipts               Net Outlays
      Statement of Budgetary Resources (SBR)                $       10,350     $          9,402    $                   (7)   $            7,941

      Funds not Reported in the Budget
        Expired Funds                                                 (285)                (10)                        -                     -
        Offsetting Receipts                                              -                   -                         7                    (6)

      Budget of the United States Government               $        10,065     $         9,392     $                    -    $           7,935




19.        Net Custodial Revenue Activity
For the fiscal years ended September 30, 2012 and 2011, the FBI collected $10,736 and $902,
respectively, in restitution payments, seized abandoned cash, and project generated proceeds. These
collections were incidental to the FBI’s mission. Since the FBI does not have statutory authority to use
these funds, the FBI remits these funds upon receipt to the U.S. Treasury’s General Fund. In addition, the
FBI reports a custodial liability when custodial revenues are held by the FBI, but have not yet been
transmitted to the U.S. Treasury’s General Fund. As of September 30, 2012 and 2011, the FBI did not
have any custodial liabilities.




Federal Bureau of Investigation                                   - 63 -
                                         These notes are an integral part of the financial statements.
                     Notes to the Financial Statements


20.        Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
           Financing)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                                     2012               2011
Resources Used to Finance Activities
      Budgetary Resources Obligated
         Obligations Incurred                                                                $        9,591,524     $    9,402,273
         Less: Spending Authority from Offsetting Collections and
              Recoveries                                                                              1,686,307          1,538,058
         Obligations Net of Offsetting Collections and Recoveries                                     7,905,217          7,864,215
         Less: Offsetting Receipts                                                                          145             (7,284)
         Net Obligations                                                                              7,905,072          7,871,499

    Other Resources
        Transfers-In/Out Without Reimbursement                                                            5,333             74,270
        Imputed Financing from Costs Absorbed by Others (Note 17)                                       276,722            305,129
        Other                                                                                            (5,199)            (4,613)
        Net Other Resources Used to Finance Activities                                                  276,856            374,786
Total Resources Used to Finance Activities                                                            8,181,928          8,246,285
Resources Used to Finance Items not Part of the Net Cost of
    Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
            and Benefits Ordered but not Yet Provided                                                  166,852             77,563
        Resources That Fund Expenses Recognized in Prior Periods (Note 21)                             (46,561)           (14,829)
        Budgetary Offsetting Collections and Receipts That do not
            Affect Net Cost of Operations                                                                  145             (7,284)
        Resources That Finance the Acquisition of Assets                                              (563,033)          (560,023)
        Other Resources or Adjustments to Net Obligated Resources
            That do not Affect Net Cost of Operations                                                       1,579          13,026
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                                     (441,018)          (491,547)
Total Resources Used to Finance the Net Cost of Operations                                   $        7,740,910     $    7,754,738

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
        in Future Periods (Note 21)                                                          $          18,424      $       5,076
    Depreciation and Amortization                                                                      295,457            247,881
    Revaluation of Assets or Liabilities                                                                18,593             16,217
    Other                                                                                               (3,250)           (70,898)
Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                                329,224            198,276
Net Cost of Operations                                                                       $        8,070,134     $    7,953,014




Federal Bureau of Investigation                               - 64 -
                                     These notes are an integral part of the financial statements.
                     Notes to the Financial Statements


21.	       Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
           Components of Net Cost of Operations Requiring or Generating Resources in Future
           Periods
Liabilities that are not covered by realized budgetary resources and for which there is no certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities
not covered by budgetary resources. These liabilities totaling $506,882 and $546,393 as of September 30,
2012 and 2011, respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources.
Decreases in these liabilities result from current year budgetary resources that were used to fund expenses
recognized in prior periods. Increases in these liabilities represent unfunded expenses that were
recognized in the current period. These increases along with the change in the portion of exchange
revenue receivables from the public, which are not considered budgetary resources until collected,
represent components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and receivables
generating resources in future periods are comprised of the following:

       For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                                        2012            2011
       Resources that Fund Expenses Recognized in Prior Periods
        Other
          Decrease in Actuarial FECA Liabilities                                                    $     (6,004)   $          ­
          Decrease in Accrued FECA Liabilities                                                                 -            (402)
          Decrease in Contingent Liabilities                                                             (40,547)        (14,427)
          Decrease in Other Unfunded Employment Related Liabilities                                          (10)              ­
            Total Other                                                                                  (46,561)        (14,829)
            Total Resources that Fund Expenses Recognized in Prior Periods                          $    (46,561)   $    (14,829)

       Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
        Increase in Accrued Annual and Compensatory Leave Liabilities                         $        6,546        $      4,753
        Increase in Environmental and Disposal Liabilities                                               232                 232
        (Increase)/Decrease in Exchange Revenue Receivable from the Public                             4,637              (1,899)
        Other
          Increase in Actuarial FECA Liabilities                                                           -               6,073
          Increase in Accrued FECA Liabilities                                                           272                   ­
          Increase in Other Unfunded Employment Related Liabilities                                        -                  97
          (Increase)/Decrease in Surcharge Revenue Receivable from Other Federal Agencies              6,737              (4,180)
            Total Other                                                                                7,009               1,990
            Total Components of Net Cost of Operations That Will Require or Generate
            Resources in Future Periods                                                       $       18,424        $      5,076




Federal Bureau of Investigation                              - 65 -
                                    These notes are an integral part of the financial statements.
This page intentionally left blank. 





           - 66 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



   REQUIRED SUPPLEMENTARY INFORMATION
               (UNAUDITED)




                  - 67 -
                                                                          U.S. Department of Justice

                                                                        Federal Bureau of Investigation

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                                         By Major Appropriation

                                                                                Unaudited

                                                              For the Fiscal Year Ended September 30, 2012


Dollars in Thousands                                                                                                                           2012
                                                                                       CNST             VCRP           S&E                TOTAL

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                $       103,721   $          -   $      843,813     $       947,534


   Recoveries of Prior Year Unpaid Obligations                                             16,728              -          273,699             290,427
   Other Changes in Unobligated Balances                                                        -              -           (53,259)            (53,259)
   Unobligated Balance from Prior Year Budget Authority, Net                              120,449              -         1,064,253           1,184,702
   Appropriations (discretionary and mandatory)                                            80,982              -         8,029,429           8,110,411
   Spending Authority from Offsetting Collections (discretionary and mandatory)                1               -         1,395,879           1,395,880

Total Budgetary Resources                                                         $      201,432    $          -   $   10,489,561     $    10,690,993


Status of Budgetary Resources:
   Obligations Incurred                                                                   104,743              -         9,486,781           9,591,524
   Unobligated Balance, End of Period:
       Apportioned                                                                         96,688              -          527,747             624,435
       Unapportioned                                                                           1               -          475,033             475,034
   Total Unobligated Balance - End of Period                                               96,689              -         1,002,780           1,099,469

Total Status of Budgetary Resources                                               $      201,432    $          -   $   10,489,561     $    10,690,993


Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations, Gross                                                  $       395,266   $          4   $     2,769,998    $      3,165,268
       Less: Uncollected Customer Payments from Federal Sources                                 -              -          492,704             492,704
            Total Obligated Balance, Net - Brought Forward, October 1                     395,266              4         2,277,294           2,672,564
   Obligations Incurred                                                                   104,743              -         9,486,781           9,591,524
   Less: Outlays, Gross                                                                   166,510              4         9,227,606           9,394,120
   Change in Uncollected Customer Payments from Federal Sources                                 -              -           (75,764)            (75,764)
   Less: Recoveries of Prior Year Unpaid Obligations                                       16,728              -          273,699             290,427


   Obligated Balance, Net - End of Period
       Unpaid Obligations, Gross                                                          316,771              -         2,755,474           3,072,245
       Less: Uncollected Customer Payments from Federal Sources                                 -              -          568,468             568,468
           Total Obligated Balance, Net - End of Period                           $      316,771    $          -   $    2,187,006     $     2,503,777

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                                80,983              -         9,425,308           9,506,291
   Less: Actual Offsetting Collections (discretionary and mandatory)                           1               -         1,320,115           1,320,116
   Change in Uncollected Customer Payments from Federal Sources
       (discretionary and mandatory)                                                            -              -           (75,764)            (75,764)
   Budgetary Authority, Net (discretionary and mandatory)                         $       80,982    $          -   $    8,029,429     $     8,110,411


   Outlays, Gross (discretionary and mandatory)                                   $       166,510   $          4   $     9,227,606    $      9,394,120
   Less: Actual Offsetting Collections (discretionary and mandatory)                           1               -         1,320,115           1,320,116
   Outlays, Net (discretionary and mandatory)                                             166,509              4         7,907,491           8,074,004
   Less: Distributed Offsetting Receipts                                                        -              -              145                 145
   Agency Outlays, Net (discretionary and mandatory)                              $      166,509    $          4   $    7,907,346     $     8,073,859




Federal Bureau of Investigation                                               - 68 -
                                                                          U.S. Department of Justice

                                                                        Federal Bureau of Investigation

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                                         By Major Appropriation

                                                                                Unaudited

                                                              For the Fiscal Year Ended September 30, 2011


Dollars in Thousands                                                                                                                              2011
                                                                                       CNST               VCRP           S&E                 TOTAL

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                $       166,000     $          4   $      780,873      $       946,877


   Recoveries of Prior Year Unpaid Obligations                                             25,421                -          191,143              216,564
   Other Changes in Unobligated Balances                                                      (288)              -           (58,697)             (58,985)
   Unobligated Balance from Prior Year Budget Authority, Net                              191,133                4          913,319             1,104,456
   Appropriations (discretionary and mandatory)                                           107,095                -         7,816,762            7,923,857
   Spending Authority from Offsetting Collections (discretionary and mandatory)                15                -         1,321,479            1,321,494

Total Budgetary Resources                                                         $      298,243      $          4   $   10,051,560      $    10,349,807


Status of Budgetary Resources:
   Obligations Incurred                                                                   194,522                4         9,207,747            9,402,273
   Unobligated Balance, End of Period:
       Apportioned                                                                        103,706                -          490,607              594,313
       Unapportioned                                                                           15                -          353,206              353,221
   Total Unobligated Balance - End of Period                                              103,721                -          843,813              947,534

Total Status of Budgetary Resources                                               $      298,243      $          4   $   10,051,560      $    10,349,807


Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations, Gross                                                  $       379,835     $          -   $     2,841,976     $      3,221,811
       Less: Uncollected Customer Payments from Federal Sources                                  -               -          479,261              479,261
            Total Obligated Balance, Net - Brought Forward, October 1                     379,835                -         2,362,715            2,742,550
   Obligations Incurred                                                                   194,522                4         9,207,747            9,402,273
   Less: Outlays, Gross                                                                   153,670                -         9,088,582            9,242,252
   Change in Uncollected Customer Payments from Federal Sources                                  -               -           (13,443)             (13,443)
   Less: Recoveries of Prior Year Unpaid Obligations                                       25,421                -          191,143              216,564


   Obligated Balance, Net - End of Period
       Unpaid Obligations, Gross                                                          395,266                4         2,769,998            3,165,268
       Less: Uncollected Customer Payments from Federal Sources                                  -               -          492,704              492,704
           Total Obligated Balance, Net - End of Period                           $      395,266      $          4   $    2,277,294      $     2,672,564

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                               107,110                -         9,138,241            9,245,351
   Less: Actual Offsetting Collections (discretionary and mandatory)                           15                -         1,308,036            1,308,051
   Change in Uncollected Customer Payments from Federal Sources
       (discretionary and mandatory)                                                             -               -           (13,443)             (13,443)
   Budgetary Authority, Net (discretionary and mandatory)                         $      107,095      $          -   $    7,816,762      $     7,923,857


   Outlays, Gross (discretionary and mandatory)                                   $       153,670     $          -   $     9,088,582     $      9,242,252
   Less: Actual Offsetting Collections (discretionary and mandatory)                           15                -         1,308,036            1,308,051
   Outlays, Net (discretionary and mandatory)                                             153,655                -         7,780,546            7,934,201
   Less: Distributed Offsetting Receipts                                                         -               -             (7,284)             (7,284)
   Agency Outlays, Net (discretionary and mandatory)                              $      153,655      $          -   $    7,787,830      $     7,941,485




Federal Bureau of Investigation                                               - 69 -
This page intentionally left blank. 





           - 70 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



    OTHER ACCOMPANYING INFORMATION
             (UNAUDITED)




                 - 71 -
This page intentionally left blank. 





           - 72 -
                                           U.S. Department of Justice

                                         Federal Bureau of Investigation

                                          Other Accompanying Information

                                                 Schedule of Spending

                                                      Unaudited

                                    For the Fiscal Year Ended September 30, 2012


            Dollars in Thousands                                                      2012


            What Money is Available to Spend?
            Total Resources                                            $      10,690,993
            Less: Amount Available but Not Agreed to be Spent                    624,435
            Less: Amount Not Available to be Spent                               475,034
            Total Amounts Agreed to be Spent                           $      9,591,524

            How was the Money Spent?
            Personnel Compensation and Benefits
                11 Personnel Compensation                              $       3,530,060
                12 Personnel Benefits                                          1,372,081
                13 Benefits for Former Personnel                                   1,080
            Contractual Services and Supplies
                21 Travel and Transportation of Persons                          245,049
                22 Transportation of Things                                       19,270
                23 Rent, Communications, and Utilities                           843,568
                24 Printing and Reproduction                                       5,560
                25 Other Contractual Services                                  2,416,648
                26 Supplies and Materials                                        162,034
            Acquisition of Assets
                31 Equipment                                                        611,656
                32 Land and Structures                                              185,550
            Grants and Fixed Charges
                42 Insurance Claims and Indemnities                                1,564
            Total Spending                                                     9,394,120
            Amounts Remaining to be Spent                              $         197,404
            Total Amounts Agreed to be Spent                           $      9,591,524




Federal Bureau of Investigation
                                              - 73 -
